<html>
<title> - OVERSIGHT HEARING ON THE SCIENCE BEHIND DISCOVERY: SEISMIC EXPLORATION AND THE FUTURE OF THE ATLANTIC OUTER CONTINENTAL SHELF</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 THE SCIENCE BEHIND DISCOVERY: SEISMIC EXPLORATION AND THE FUTURE OF 
                 THE ATLANTIC OUTER CONTINENTAL SHELF

=======================================================================

                           OVERSIGHT HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        Friday, January 10, 2014

                               __________

                           Serial No. 113-57

                               __________

       Printed for the use of the Committee on Natural Resources


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

00-000 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001          
          
          
          
          
          
          
          
          
          
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Rauul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Caardenas, CA
Paul A. Gosar, AZ                    Steven A. Horsford, NV
Rauul R. Labrador, ID                Jared Huffman, CA
Steve Southerland, II, FL            Raul Ruiz, CA
Bill Flores, TX                      Carol Shea-Porter, NH
Jon Runyan, NJ                       Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Steve Daines, MT                     Matt Cartwright, PA
Kevin Cramer, ND                     Katherine M. Clark, MA
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                       DOUG LAMBORN, CO, Chairman
                RUSH HOLT, NJ, Ranking Democratic Member

Louie Gohmert, TX                    Steven A. Horsford, NV
Rob Bishop, UT                       Matt Cartwright, PA
Robert J. Wittman, VA                Jim Costa, CA
Paul C. Broun, GA                    Niki Tsongas, MA
John Fleming, LA                     Jared Huffman, CA
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Cynthia M. Lummis, WY                Tony Caardenas, CA
Dan Benishek, MI                     Rauul M. Grijalva, AZ
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Joe Garcia, FL
Bill Flores, TX                      Vacancy
Steve Daines, MT                     Vacancy
Kevin Cramer, ND                     Vacancy
Vacancy                              Peter A. DeFazio, OR, ex officio
Vacancy
Doc Hastings, WA, ex officio
                                 ------  
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Friday, January 10, 2014.........................     1

Statement of Members:
    Holt, Hon. Rush, a Representative in Congress from the State 
      of New Jersey..............................................     4
        Prepared statement of....................................     6
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Barnes, Paul, Manager, Atlantic Canada, Canadian Association 
      of Petroleum Producers.....................................    12
        Prepared statement of....................................    13
    Boesch, Donald F., President, University of Maryland Center 
      for Environmental Science..................................    29
        Prepared statement of....................................    31
    Cruickshank, Walter, Deputy Director, Bureau of Ocean Energy 
      Management, U.S. Department of the Interior................     8
        Prepared statement of....................................    10
    Knapp, James H., Ph.D., Chair, USC Faculty Senate and 
      Professor, Dept. of Earth & Ocean Sciences, School of 
      Earth, Ocean, & Environment, University of South Carolina..    16
        Prepared statement of....................................    17
    Miller, Richie, President, Spectrum Geo, Inc.................    24
        Prepared statement of....................................    25
        Questions submitted for the record from Chairman Lamborn.    28

                                     


 
OVERSIGHT HEARING ON THE SCIENCE BEHIND DISCOVERY: SEISMIC EXPLORATION 
         AND THE FUTURE OF THE ATLANTIC OUTER CONTINENTAL SHELF

                              ----------                              


                        Friday, January 10, 2014

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 9:30 a.m., in 
room 1324, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamborn, Wittman, Thompson, 
Benishek, Duncan, Flores, Holt, Costa, Tsongas, Huffman, 
Lowenthal, Hanabusa, and Clark.
    Also Present: Representative Pallone.
    The Chairman. The committee will come to order. The 
committee notes the presence of a quorum, which under Committee 
Rule 3(e) is two members.
    The Subcommittee on Energy and Mineral Resources is meeting 
today to hear testimony on an oversight hearing entitled ``The 
Science Behind Discovery: Seismic Exploration and the Future of 
the Atlantic Outer Continental Shelf.'' Under Committee rule 
4(f), opening statements are limited to the Chairman and 
Ranking Member of the subcommittee. However, I ask unanimous 
consent to include any other members' opening statements in the 
hearing record if submitted to the clerk by close of business 
today.
    Hearing no objection, so ordered.
    I also ask unanimous consent that Representative Pallone be 
allowed to participate in today's hearing at such time as he 
may be able to be here.
    Hearing no objection, so ordered. I now recognize myself 
for 5 minutes.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    The Chairman. As we begin today's hearing, I want to make 
sure that everyone was clear about the focus of this hearing, 
particularly in light of recent discussions related to crude 
oil exports.
    While America is in the beginning of a new energy 
renaissance, this committee has continued to focus on the fact 
that this resurgence has taken place primarily on State and 
private lands. Meanwhile, the potential jobs and domestic 
production from Federal land has been stifled by this 
administration. If America wants to continue to reap the 
economic rewards of increased oil and natural gas production, 
we must eliminate the red tape and other barriers that continue 
to lock up the vast resources of our Federal lands and waters.
    However, the topic of crude oil exports has become an 
important discussion point, especially in this past week. I 
think we all need to keep in mind that each day, while the 
Obama administration continues to hold hostage our domestic 
resources, America imports nearly 7.5 million barrels of oil 
from Arab sheiks and Latin dictators. This amounts to nearly 
one $1 billion each day flowing from the pockets of everyday 
Americans to petrol dictators and enemies of America who fund 
terrorists around the world.
    We have a choice, we can stop buying their oil by producing 
more here at home, something I support and something 
unfortunately this administration has opposed at almost every 
step.
    Let me be clear, I support free trade. I also support 
America energy independence, and that is a road we are on, but 
we are still far from our goal. As long as the administration 
continues to stifle our domestic development on Federal lands, 
our fight to create jobs and open our resources must be the 
focus of our efforts.
    As long as American's hard-earned dollars are funding 
terrorists and petrol dictators, we must fight to open and 
develop our domestic resources, and that fight is not over. I 
hope the day comes soon where we can discuss oil exports. But 
as long as 85 percent of our Outer Continental Shelf remains 
closed by this administration, as long as less than 2 percent 
of our Federal onshore mineral estate is available for leasing, 
as long as the administration drives out research and 
development investment on new sources of energy like domestic 
oil shale, those discussions are premature. Our focus should 
remain on creating American jobs and producing American 
resources for American consumers.
    This hearing today is a central focus of that agenda. A 
clear understanding of the resources in the Atlantic Ocean will 
help us know what areas we should develop and what resources 
America holds in our OCS. However, although the process of 
developing the Programmatic Environmental Impact Statement, or 
PEIS, for seismic started in 2009, the Obama administration has 
dragged its feet.
    Now as we start 2014, we are just 1 year from the start of 
the development of the 2017-2022 5-year plan. We are 1 year 
from needing the data this PEIS is supposed to help us secure, 
yet the development is being stifled by the administration. If 
we hope to see the Atlantic included in the next 5-year plan, 
the administration must move forward immediately and rapidly.
    In any kind of decisionmaking, I think we can all agree 
that decisions, especially those which will greatly impact our 
Nation's future, must be made with the best available data. In 
the case of the Atlantic OCS, the best available data cannot 
yet be obtained because we await a final record of decision 
from the Department of the Interior. Nearly 5 years ago to the 
day, January 21, 2009, the DOI issued the initial Notice of 
Intent to prepare the PEIS in order to enable the permitting of 
seismic activity in the Atlantic. Dr. Cruickshank will recall 
the issuance of this notice as he was with the Department at 
the time. When it takes our Canadian allies to the north only 6 
months to issue a seismic permit, the obvious question remains: 
5 years and counting, when will the U.S. Atlantic finally see 
this activity? Five years and counting.
    I fully expect that some of my colleagues on the minority 
side will likely decry seismic research because, much like our 
President, they actually do not wish to see new energy 
development in the U.S. Outer Continental Shelf outside of the 
Gulf of Mexico. But I would remind them that today's hearing is 
focused primarily on sound science and progress. The technology 
behind seismic surveying has come a long way from the 
technology employed in the late 1970s and early 1980s, when it 
was last conducted in the Atlantic.
    In an increasing competitive global market, where allies 
like Canada and Mexico have made recent announcements about 
increasing their offshore oil and gas production, we need to 
know that the agencies that oversee our OCS operations are 
doing their jobs efficiently and spending taxpayer dollars 
wisely. We need to know that our country is maintaining its 
competitive edge and attracting economic development and the 
thousands of jobs that come with it. A recent study estimates 
that offshore energy development in the Atlantic alone could 
generate 280,000 jobs, $24 billion per year to the economy, and 
1.3 million barrels of oil and natural gas production per day.
    What I hope to find today is that the administration is not 
standing in the way of permitting advanced and safe technology, 
which is already employed in the Gulf of Mexico and the 
Canadian Atlantic to scientifically determine what kind of 
resources are contained in the Mid- and South Atlantic Outer 
Continental Shelf planning areas. These are the only areas that 
the PEIS covers. This information is of fundamental importance 
as this Congress and this administration make decisions going 
forward. I cannot imagine a single person who would choose 
ignorance over scientific discovery.

    [Prepared statement of Mr. Lamborn follows:]
Prepared Statement of the Hon. Doug Lamborn, Chairman, Subcommittee on 
                      Energy and Mineral Resources
    As we begin today's hearing, I wanted to make sure that everyone 
was clear about the focus of this hearing--particularly in light of the 
recent discussions related to crude oil exports.
    While America is in the beginning of a new energy renaissance, this 
committee has continued to focus on the fact that this resurgence has 
taken place primarily on State and private lands. Meanwhile, the 
potential jobs and domestic production from Federal land has been 
actively stifled by this administration. If America wants to continue 
to reap the economic rewards of increased oil and natural gas 
production we must eliminate the red tape and barriers that continue to 
lock up the vast resources of our Federal lands and waters.
    However, the topic of crude oil exports has become an important 
discussion point, especially this past week. I think we all need to 
keep in mind that each day, while the Obama administration continues to 
hold hostage our domestic resources, America imports nearly 7\1/2\ 
million barrels of oil from Arab Sheiks and Latin Dictators. This 
amounts to nearly $1 billion each day flowing from the pockets of 
everyday Americans to petrol dictators and enemies of America who fund 
terrorists around the world.
    We have a choice, we can stop buying their oil by producing more 
here at home, something I support and something this administration has 
steadfastly opposed at every step.
    Let me be clear, I support free trade. I also support American 
energy independence and that is a road that we are on, but we are still 
far from our goal. As long as the administration continues to stifle 
our domestic development on Federal lands our fight to create jobs and 
open our resources must be at the center of our efforts.
    As long as American's hard earned dollars are funding terrorists 
and petrol dictators we must fight to open and develop our domestic 
resources--and that fight is not over. I hope the day will come where 
we can discuss oil exports, but as long as 85 percent of our OCS 
remains closed by the administration, as long as less than 2 percent of 
our Federal onshore mineral estate is available for leasing, as long as 
the administration drives out research and development investment in 
domestic oil shale, those discussions are premature. Our focus should 
remain on creating American jobs and producing American resources for 
American consumers.
    This hearing today is a central focus of that agenda. A clear 
understanding of the resources in the Atlantic Ocean will help us know 
what areas we should develop and what resources America holds in our 
OCS. However, although the process of developing the Programmatic 
Environmental Impact Statement or PEIS for seismic started in 2009, the 
Obama administration has actively dragged their feet. Now as we start 
2014, we are just 1 year from the start of the development of the 2017-
2022 5-year plan. One year from needing the data this PEIS is supposed 
to help us secure, yet the development is being stifled by the 
administration. If we hope to see the Atlantic included in the next 5-
year plan, the administration must move forward quickly.
    In decisionmaking, I think we can all agree that decisions, 
especially those which will greatly impact our Nation's future, must be 
made with the best available data. In the case of the Atlantic OCS, the 
best available data cannot yet be procured because we await a final 
record of decision from the Department of the Interior. Nearly 5 years 
ago to the day, January 21, 2009, the DOI issued the initial notice of 
intent to prepare the PEIS in order to enable permitting seismic 
activity in the Atlantic. Dr. Cruickshank likely will recall the 
issuance of this notice as he was with the Department at the time. When 
it takes our allies to the North only 6 months to issue a seismic 
permit, the obvious question remains: 5 years AND COUNTING, when will 
the U.S. Atlantic finally allow this activity?
    I fully expect that some of my colleagues on the minority side will 
likely decry seismic research because, much like our President, they do 
not wish to see new energy development in the U.S. OCS outside of the 
Gulf of Mexico. But I would remind them that today's hearing is focused 
primarily on sound science and progress. The technology behind seismic 
surveying has come a long way from the technology employed in the late 
'70s and early '80s--when it was last conducted in the Atlantic. In an 
increasingly competitive global market, where allies like Canada and 
Mexico have made recent announcements about increasing their offshore 
oil and gas production, we need to know that the agencies that oversee 
our OCS operations are doing their jobs efficiently and spending 
taxpayer dollars wisely. We need to know that our country is 
maintaining its competitive edge and attracting economic development 
and the thousands of jobs that come with it. A recent study estimates 
that offshore energy development in the Atlantic alone could generate 
280,000 jobs, $24 billion per year to the economy, and 1.3 million 
barrels of oil and natural gas production per day.
    What I hope to find today is that we are not spending millions of 
taxpayer dollars and countless years to stand in the way of permitting 
cutting edge, safe technology which is already employed in the Gulf of 
Mexico and the Canadian Atlantic to simply determine what kind of 
resources are contained in the Mid- and South Atlantic OCS Planning 
Areas--which are the only areas that the PEIS covers. This information 
is of fundamental importance as this Congress and this administration 
make decisions going forward--and I cannot imagine a single soul that 
would choose ignorance over scientific discovery.

                                 ______
                                 

    The Chairman. I now yield 5 minutes to the gentleman from 
New Jersey.

 STATEMENT OF THE HON. RUSH HOLT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Dr. Holt. I thank the Chairman. Before I begin, I would 
like to welcome the committee's newest member, Representative 
Katherine Clark, filling the seat vacated by long time 
committee member and environmental champion, Ed Markey. I would 
like to ask unanimous consent to give Ms. Tsongas the 
opportunity to introduce our new member.
    The Chairman. Seeing no objection, so ordered.
    Ms. Tsongas. Thank you, Mr. Chairman. It is my honor to 
introduce Congresswoman Katherine Clark, newly elected to 
represent Massachusetts' 5th Congressional District, a seat 
formerly held with such distinction by our former colleague and 
now U.S. Senator Ed Markey.
    Katherine brings great experience in elective office, 
having previously been a school committeewoman, a State 
representative and a State Senator. Congresswoman Clark is a 
lawyer by training and as an elected official, is committed to 
her constituents, the issues affecting America's families and 
to our environment. It is great to have my colleague from 
Massachusetts join us on this committee.
    Thank you and I yield back.
    Dr. Holt. Thank you, Representative Tsongas.
    Mr. Chairman, 3 years ago this week the Presidential 
Commission on the BP Deepwater Horizon oil spill and offshore 
drilling released its final report on the causes and the 
lessons of the tragedy that claimed 11 lives and resulted in 
the release of nearly 5 million barrels of oil into the Gulf of 
Mexico, which some have called the greatest environmental 
disaster in the region ever.
    That report concluded that the incident could have been 
prevented, that a culture of complacency had taken root with 
both drillers and regulators, and that significant reforms were 
urgently needed before we moved forward. The Commission made 
dozens of recommendations urging the oil and gas industry, the 
executive branch and Congress to take immediate action to 
assure that the appropriate levels of human safety and 
environmental protection were observed.
    The Administration and the industry have, in large part, 
followed through. With more work needed, we still should fully 
enact the recommendations of the Oil Spill Commission. 
Congress, however, has lagged behind. In 2012, on the 2-year 
anniversary of the Deepwater Horizon explosion, the former 
commissioners assigned a grade of D, D as in Delta, to 
Congress, saying that ``Congress did nothing about the many 
other critical issues the Commission identified to improve 
safety and environmental protection.''
    One year later the grade jumped to D-plus in recognition of 
the passage of the RESTORE Act, but the commissioners stressed 
that Congress had ``provided neither the leadership nor the 
support'' for efforts to make offshore drilling safer.
    Today, we are seeing an example of that lack of leadership 
and support from the majority here. The Democrats have made 
improving offshore safety a priority since the tragedy. We 
passed the CLEAR Act that summer which would have enacted 
critical safety and environmental reforms. We brought forward a 
bill in 2011 to enact the recommendations of the Oil Spill 
Commission. Last year, I introduced the Big Oil Bailout 
Prevention Act to raise the recklessly low $75 million 
liability cap on offshore spills, and the Ocean Energy Safety 
and Technology Improvement Act to adopt recommendations from 
the National Academy of Sciences to promote the use of the best 
available and safest technology offshore. But the majority's 
main priority has been to open up more of our oceans to 
drilling. Even the one bill they passed that would have enacted 
any of the Commission's recommendations was mainly about 
forcing lease sales in new areas, short-circuiting 
environmental reviews and putting up roadblocks to public 
protests.
    Today, they turn their attention to the Atlantic and how to 
use seismic exploration as the first step toward opening up the 
entire Atlantic seaboard to drilling. I believe that would be a 
huge mistake. We should not be risking our fishing and tourism 
industries, sustainable industries that bring in over $45 
billion each year and support half a million jobs in New Jersey 
alone because the energy companies want to get their hands on a 
quick oil buck, a little extra oil, that I might add the oil 
and gas industry has made clear they would rather export than 
use for the benefit of American consumers. Why should the 
fisheries, the tourism, the residents, the coastal businesses 
of the Atlantic ocean be burdened with all the risks while the 
reward goes to the foreign fossil fuel companies and consumers.
    It is foolish to rush to open new areas to offshore 
drilling before we have heeded the lessons of the last 
disaster. Those lessons and those disasters keep coming. Just 
in the last 14 months, we have had two major offshore 
explosions in shallow water, one of which cost three offshore 
workers their lives. There have been a number of other losses 
of well control, as Dr. Boesch details in his testimony. 
Unfortunately, none of these have motivated the majority to 
hold any hearings on shallow-water drilling safety. That is 
unfortunate.
    It is interesting that the Chairman says that production on 
Federal land is down. That is not true. Production on onshore 
Federal land is up by 35 percent. And as for offshore drilling, 
not only is it not surprising that it takes a while to recover 
from the greatest environmental disaster and safety debacle 
that we have seen, but we should be going slow to make sure 
that we do it right.
    This obstinacy by the majority won't stop my efforts to 
draw attention to these issues, to push for adoption of 
serious, meaningful reforms to make offshore drilling safer, 
not just more prevalent.
    I thank the witnesses for being here today.

    [Prepared statement of Mr. Holt follows:]
     Prepared Statement of the Hon. Rush D. Holt, Ranking Member, 
              Subcommittee on Energy and Mineral Resources
    Mr. Chairman, 3 years ago tomorrow the Presidential Commission on 
the BP Deepwater Horizon Oil Spill and Offshore Drilling released its 
final report on the causes and lessons of the tragedy that claimed the 
lives of 11 offshore workers and resulted in the release of nearly 5 
million barrels of oil into the Gulf of Mexico.
    That report concluded that the incident could have been prevented, 
that a culture of complacency had taken root with both the drillers and 
the regulators, and that significant reforms were urgently needed. The 
Commission made dozens of recommendations, urging the oil and gas 
industry, the executive branch, and Congress to take immediate action 
to assure the appropriate levels of human safety and environmental 
protection in offshore drilling.
    The Administration and the industry have, in large part, followed 
through. While more work needs to be done, they have enacted many of 
the recommendations made by the Oil Spill Commission.
    Congress, however, has lagged woefully behind. In 2012, on the 2-
year anniversary of the Deepwater Horizon explosion, the former 
Commissioners assigned a grade of D to Congress, saying ``Congress did 
nothing about the many other critical issues the Commission identified 
to improve safety and environmental protection.'' One year later, the 
grade jumped to a D+ in recognition of the passage of the RESTORE Act, 
but the Commissioners stressed that Congress had ``provided neither the 
leadership nor support'' for efforts to make offshore drilling safer.
    Today we are seeing an example of that lack of leadership and 
support from the Republican side. Committee Democrats have made 
improving offshore safety a priority since the tragic events of April 
2010. We passed the CLEAR Act that summer, which would have enacted 
critical safety and environmental reforms. We brought forward a bill in 
2011 to enact the recommendations of the Oil Spill Commission. Last 
year, I introduced the Big Oil Bailout Prevention Act to raise the 
recklessly low $75 million liability cap on offshore spills, and the 
Ocean Energy Safety and Technology Improvement Act to adopt 
recommendations from the National Academy of Sciences to promote the 
use of best available and safest technology offshore.
    But the Majority's main priority is opening up more of our oceans 
to drilling. Even the one bill they passed that would have enacted any 
of the Commission's recommendations was mainly about forcing lease 
sales in new areas, short-circuiting environmental reviews, and putting 
up roadblocks to public protests.
    Today, they turn their attention to the Atlantic, and how to use 
seismic exploration as the first step toward opening the entire 
Atlantic seaboard to drilling. I believe that would be a huge mistake. 
We should not be risking our fishing and tourism industries--
sustainable industries that bring in over $45 billion each year and 
support over a half million jobs in New Jersey alone--because the 
energy companies want to get their hands on a little extra oil.
    A little extra oil that, I might add, the oil and gas industry has 
made clear they would rather export than use for the benefit of 
American consumers, which some Republicans have said they would be more 
than happy to allow them to do.
    It is foolish to discuss opening new areas to offshore drilling 
before we have heeded the lessons of the last disaster. Unfortunately, 
those lessons and those disasters keep coming. Just in the past 14 
months there have been two major offshore explosions in shallow water, 
one of which cost three offshore workers their lives. There have also 
been a number of other losses of well control, as Dr. Boesch details in 
his testimony. Unfortunately, none of these have motivated the majority 
to hold any hearings on shallow-water drilling safety.
    I believe that is unfortunate, but it will not stop my efforts to 
draw attention to these issues, and to push for adoption of serious, 
meaningful reforms to make offshore drilling safer, instead of more 
prevalent.
    I thank the witnesses for being here today, and I yield back the 
balance of my time.

                                 ______
                                 

    The Chairman. OK, I thank the gentleman. I would like to 
remind everyone that the subject of the hearing today is on the 
PEIS for the Mid- and South Atlantic areas only. These are the 
planning areas for the next 5-year plan.
    OK. We will now hear from our witnesses. I will recognize 
Representative Duncan for a brief introduction of his witness 
from South Carolina.
    Mr. Duncan. I want to thank the Chairman for this 
opportunity to introduce to the committee a fellow South 
Carolinian whom I have had the pleasure of meeting in Columbia, 
Dr. James Knapp.
    Dr. Knapp is a professor of the Department of Earth and 
Ocean Sciences at the University of South Carolina specializing 
in the areas of structural geology, tectonics, geophysics and 
petroleum geology. He received a Bachelor of Science degree 
with Distinction in Geology from Stanford University and a 
Ph.D. in Structural Geology and Tectonics from MIT.
    Before arriving at the University of South Carolina as an 
associate professor in 1998, Dr. Knapp spent several years 
working in the petroleum industry, both as a research and 
exploration geologist and as a member of the research faculty 
at Cornell University. He brings to the committee today 
expertise on seismic reflection and refraction data, structural 
analysis and geological data, as well as the application of 
geological and geophysical analysis for the exploration and 
production of hydrocarbons.
    Dr. Knapp is married to Dr. Camellia Knapp, also of the 
Department of Earth and Ocean Sciences at USC where they are 
proud parents of two daughters. It is an honor to have him here 
today. Welcome, Dr. Knapp, and I look forward to your 
testimony.
    The Chairman. Thank you. I would like to now welcome the 
remainder of the panel. Dr. Walter Cruickshank, Deputy Director 
of the Bureau of Ocean Energy Management; Mr. Paul Barnes, 
manager for Atlantic Canada and with the Canadian Association 
of Petroleum Producers; Mr. Richie Miller, President of 
Spectrum Geo, Inc.; and Dr. Donald F. Boesch, President of the 
University of Maryland Center For Environmental Science. Thank 
you all for being here.
    Like all of our witnesses, your written testimony will 
appear in full in the hearing record, so I ask that you keep 
your oral statements to 5 minutes. Our microphones are not 
automatic so you need to turn them on when you are ready to 
begin.
    I also want to explain how our timing lights work. When you 
begin to speak our clerk will start the timer and a green light 
will appear. After 4 minutes, a yellow light will appear and at 
that time you should begin to conclude your statement. At 5 
minutes, the red light will come on.
    Mr. Cruickshank, you may begin. Thank you again, all of 
you, for being here. If I could say one other thing first, we 
will try to conclude the hearing before votes. However, if 
those happen faster than we were anticipating, we may have to 
take a recess and come back. This is an important topic. We 
want to hear your testimony and we want to have adequate 
opportunity for all of us to be able to ask our questions. 
Thank you very much.
    Dr. Cruickshank.

  STATEMENT OF WALTER CRUICKSHANK, DEPUTY DIRECTOR, BUREAU OF 
      OCEAN ENERGY MANAGEMENT, U.S. DEPT. OF THE INTERIOR

    Mr. Cruickshank. Good morning, Mr. Chairman, Ranking Member 
Holt and members of the subcommittee, and thank you for the 
invitation today to discuss the programmatic environmental 
impact statement for geological and geophysical activities on 
the Mid- and South Atlantic Outer Continental Shelf.
    The Bureau of Ocean Energy Management is preparing a 
programmatic EIS to evaluate reasonably foreseeable 
environmental effects of multiple G&G surveys in the Mid- and 
South Atlantic. BOEM was directed to develop this programmatic 
EIS under the conference report for 2010 Interior 
appropriations. As described in the current 5-year program for 
offshore oil and gas leasing, the completion of this EIS is 
part of a region-specific strategy with respect to safe and 
responsible oil and gas exploration in the Mid- and South 
Atlantic that focuses on the need to update information in 
order to inform future decisions about whether, and if so, 
where, leasing would be appropriate in these areas.
    The proposed action analyzed in the EIS is to permit G&G 
activities in support of potential oil and gas exploration and 
development, renewable energy, and marine mineral activities in 
the Mid- and South Atlantic planning areas.
    The programmatic EIS is being prepared because BOEM 
currently has no NEPA coverage for permitting G&G activities in 
the Atlantic. BOEM has received 13 permit requests from 9 
companies for seismic air gun surveys in the Mid- and South 
Atlantic to support oil and gas exploration. Given the scope of 
the proposed surveys and their potential impact, BOEM 
determined that a programmatic EIS is needed prior to 
permitting any significant new G&G surveys.
    The offshore oil and gas industry is interested in 
acquiring modern G&G data and information because of the 
limitation of existing information which was acquired decades 
ago with now outdated technology. Modern technology allows for 
visualization and analysis of what lies beneath the seabed to 
greater depths and with greater clarity.
    The surveys being analyzed in the programmatic EIS would 
allow for better understanding of the location and significance 
of potential oil and gas resources, inform engineering 
decisions regarding the construction of renewable energy 
projects, and support estimates regarding the composition and 
volume of marine mineral resources used for coastal restoration 
projects. This information would also be used to ensure the 
proper use and conservation of OCS energy resources and the 
receipt of fair value for any leases that might be offered in 
the future.
    The main purposes of the programmatic EIS are to evaluate 
the potential environmental effects of multiple G&G activities 
in the Mid- and South Atlantic and to define mitigation and 
monitoring measures that would reduce or eliminate potential 
impacts. BOEM uses the best available science and follows the 
guidance of experts and other regulatory agencies such as the 
National Marine Fisheries Service. BOEM has also spent nearly 
$40 million over the last decade on research to better 
understand the potential for acoustic impacts on marine life 
from geophysical sound sources.
    BOEM has also conducted programmatic consultation with NMFS 
and the Fish and Wildlife Service to assess impacts to 
endangered species in the central fish habitat. The results of 
these consultations will be considered in any decisions made by 
BOEM.
    Further, if seismic surveys are allowed to go forward, 
operators must obtain and authorization from NMFS to assure 
compliance with the Marine Mammal Protection Act before BOEM 
issues a permit. These collective environmental compliance 
efforts help ensure that any activity that ultimately may be 
authorized do not rise to the level of jeopardizing populations 
or destroying important habitat.
    An EIS of this scale and interest is a significant 
undertaking. The draft programmatic EIS was published in March 
of 2012 with a 90-day public comment period. We received over 
55,000 comments, many with constructive and substantive 
suggestions. Responding to these comments involved a great deal 
of time, analysis and expertise.
    During the development of this programmatic EIS, there has 
also been a significant amount of coordination with other 
Federal agencies with relevant expertise and authorities. BOEM 
completed a consultation with NMFS under the Endangered Species 
Act, an important consultation given the presence of the 
endangered North Atlantic right whale throughout the proposed 
action area. The resulting biological opinion was issued in 
July 2013 contributing to the time taken to finalize this EIS. 
Both the programmatic EIS and the biological opinion will be 
used to support any future permit-specific environmental 
analyses.
    Prior to the October government shutdown, BOEM was on 
target to release the final programmatic EIS on January 3rd. 
The shutdown occurred during a critical review time for 
finalizing the analysis and required the issuance of a stop 
work order to the contractor supporting our work. As a result, 
substantial momentum was lost and the schedule for publishing 
the EIS set back.
    We are now on track to publish the final programmatic EIS 
by the end of February. Finalizing this document is a high 
priority for the Department and BOEM. This is a critical 
analysis relating to the safe and responsible acquisition of 
G&G data, and we expect that the collection of new seismic 
information will inform future decisionmaking about potential 
offshore leasing in the Atlantic.
    Thank you, Mr. Chairman, and I would be happy to answer any 
questions.
    The Chairman. OK, thank you.

    [Prepared statement of Mr. Cruickshank follows:]
 Prepared Statement of Walter Cruickshank, Deputy Director, Bureau of 
        Ocean Energy Management, U.S. Department of the Interior
    Chairman Lamborn, Ranking Member Holt, and members of the 
subcommittee, I am pleased to appear before you today to discuss the 
Programmatic Environmental Impact Statement (PEIS) for Geological and 
Geophysical (G&G) Activities in the Mid- and South Atlantic Outer 
Continental Shelf (OCS).
                               background
    The Department of the Interior's Bureau of Ocean Energy Management 
(BOEM) is preparing a PEIS to evaluate reasonably foreseeable 
environmental effects of multiple G&G survey activities in the Mid- and 
South Atlantic OCS, pursuant to the National Environmental Policy Act 
(NEPA). BOEM was directed to develop this PEIS under the Conference 
Report for the Department of the Interior, Environment, and Related 
Agencies Appropriations Act, 2010 (Report 111-316). As described in the 
current Five Year Program for offshore oil and gas leasing, the 
completion of this PEIS is part of a region-specific strategy with 
respect to safe and responsible oil and gas exploration and development 
in the Mid- and South Atlantic that focuses on the need to update 
information in order to inform future decisions about whether, and if 
so where, leasing would be appropriate in these areas.
    The proposed action analyzed in the PEIS is to permit G&G 
activities in support of potential responsible oil and gas exploration 
and development, renewable energy, and marine minerals in the Mid- and 
South Atlantic Planning Areas. This PEIS is being prepared because BOEM 
currently has no programmatic NEPA coverage for permitting G&G 
activities in Atlantic OCS waters. BOEM has received 13 permit requests 
from 9 companies for seismic airgun surveys in support of oil and gas 
exploration, and industry has expressed interest in expanding 
activities into Atlantic offshore waters. The PEIS also covers G&G 
activities necessary to support renewable energy projects and the 
identification of sand and gravel resources for coastal restoration 
projects, including in response to damage from Hurricane Sandy. Given 
the scope of the proposed surveys and their potential impacts, BOEM 
determined a programmatic EIS under NEPA is needed prior to permitting 
any new, significant G&G surveys.
    The offshore oil and gas industry is interested in acquiring modern 
G&G data and information because of the limitations of existing 
information, which was acquired decades ago with now outdated 
technology. From 1966 to 1988, 2-dimensional (2D) seismic data were 
acquired in all areas of the Atlantic. The technology for acquiring and 
interpreting this data has been eclipsed by newer instrumentation and 
technology. Modern 2D and 3D data sets are acquired using better 
acoustic sources and longer receiving cables to better define subsea 
stratigraphy. In short, these advances in G&G technology allow for 
visualization and analysis of what lies beneath the seabed to greater 
depths and with greater clarity. The surveys being analyzed in the PEIS 
would allow for better understanding of the location and significance 
of potential oil and gas resources, inform engineering decisions 
regarding the construction of renewable energy projects, and support 
estimates regarding the composition and volume of marine mineral 
resources. This information would also be used to ensure the proper use 
and conservation of OCS energy resources and the receipt of fair value 
to the American people for any leases that could be offered in the 
future.
             potential environmental effects and mitigation
    The main purposes of the PEIS are to evaluate the potential 
environmental effects of multiple G&G activities in the Mid- and South 
Atlantic and to define mitigation and monitoring measures that would 
reduce or eliminate potential impacts. BOEM uses the best available 
science and follows the guidance of experts and other regulatory 
agencies, such as the National Marine Fisheries Service (NMFS). BOEM 
has contributed nearly $40 million over the last decade on ground-
breaking research to better understand the potential for acoustic 
impacts to marine life from geophysical sound sources. BOEM has also 
conducted numerous expert stakeholder workshops to discuss and identify 
further information needs on acoustic impacts.
    BOEM also is pursuing programmatic consultations with NMFS and U.S. 
Fish and Wildlife Service to assess impacts under the Endangered 
Species Act (ESA) and the Magnuson-Stevens Fishery Conservation 
Management Act (MSFCMA). The results of these consultations will be 
considered in any decisions made by BOEM. Further, if seismic surveys 
are allowed to go forward, BOEM will confer with NMFS to assure 
compliance with the Marine Mammal Protection Act (MMPA) before issuing 
any permits. These collective environmental compliance efforts (e.g., 
NEPA, ESA, MMPA, MSFCMA) help ensure that any activities that may 
ultimately be authorized do not rise to the level of jeopardizing 
populations or destroying important habitat.
                               final peis
    A PEIS of this scale and interest is a significant undertaking. The 
draft PEIS was published for public comment on March 30, 2012, and the 
comment period closed on July 2, 2012, reflecting an extended 90-day 
period per commenter requests. Over 55,000 comments were received from 
a variety of industry, government and non-government stakeholder groups 
and the general public, many with constructive, substantive 
suggestions. Responding to these comments, therefore, involved a great 
deal of time, analysis and expertise.
    During the development of the PEIS, there has also been a 
significant amount of coordination with other Federal agencies with 
relevant expertise and authorities in the Atlantic OCS. BOEM completed 
a consultation with NMFS under the ESA, an important consultation given 
the presence of the endangered North Atlantic right whale in the 
proposed action area. The resulting NMFS Biological Opinion was issued 
on July 19, 2013, which accounts, in part, for the time taken to 
finalize the PEIS. Both the PEIS and the ESA biological opinions will 
be used to support any future permit-specific environmental analyses.
    Prior to the October government shutdown, BOEM was on target to 
release the final PEIS on January 3, 2014. The shutdown occurred during 
a critical review time for finalizing the PEIS and required the 
issuance of a stop work order to the contractor supporting BOEM's work 
on the PEIS. As a result, substantial momentum was lost and the 
schedule for publishing the PEIS set back. BOEM is now on track to 
publish the final PEIS by the end of February 2014.
                               conclusion
    Finalizing the PEIS is a high priority for the Department and BOEM. 
The PEIS is a critical analysis relating to the safe and responsible 
acquisition of G&G data, and we expect that the new collection of new 
seismic information will inform future decisionmaking about potential 
offshore leasing in the Atlantic.
    Thank you again, Mr. Chairman, for inviting me to appear before 
your committee. I look forward to working with you as we advance these 
important issues.

                                 ______
                                 

    The Chairman. Mr. Barnes.

 STATEMENT OF PAUL BARNES, MANAGER, ATLANTIC CANADA, CANADIAN 
               ASSOCIATION OF PETROLEUM PRODUCERS

    Mr. Barnes. Thank you, Mr. Chairman. I would like to thank 
you for the invitation as well to bring a Canadian perspective 
to your subcommittee on this issue.
    I represent the Canadian Association of Petroleum 
Producers, which is an association of oil and gas companies 
involved in exploration, development and production of oil and 
gas in Canada. Our members produce about 90 percent of Canada's 
natural gas and crude oil. Our head office is located in 
Calgary, Alberta, but we have a regional office based in St. 
John's, Newfoundland, which represents the Atlantic Canada 
region and primarily is involved in the offshore for Canada, 
and that is where I am based and represent. Our association is 
very similar to the American Petroleum Institute here in the 
United States.
    Exploration for offshore oil and gas began off of Atlantic 
Canada in the 1960s, with the first offshore seismic program 
being undertaken in 1964. Since then, over 3 million 
kilometers, or approximately 1.9 million miles of seismic data 
has been acquired. This seismic data has led to a number of 
major discoveries of oil and gas in offshore Newfoundland and 
Labrador and of natural gas off of Nova Scotia, and those 
discoveries have brought substantial benefits to this area of 
Atlantic Canada.
    Currently, our industry employs over 7,000 people directly 
and thousands more indirectly, and we have had cumulative 
expenditures since 1996 of over $31 billion in Newfoundland and 
Labrador from oil and gas activity and over $8 billion in Nova 
Scotia associated with that activity. And our impact on gross 
domestic product is huge, over 30 percent actually in 
Newfoundland and Labrador, which means a substantial amount of 
our activity is driven from oil and gas.
    We have five major oil and gas production projects 
undergoing off of Atlantic Canada, three of which are oil and 
two of which are natural gas, and most of the product is 
actually exported here to the United States. There are also new 
basins as well that are opening up for exploration activity all 
along the Newfoundland and Nova Scotia area.
    As you are aware, seismic surveys provide information on 
the depth, position and shape of underground geological 
formations that may contain oil and gas. Data is processed to 
improve the quality and filter out any background noise and the 
end result is a detailed picture of the underground structures 
and rock formations in the survey area.
    Why are seismic surveys conducted? Well, they certainly 
help the oil and gas companies determine or decide whether the 
available information is sufficient to justify drilling an 
exploratory well or if additional surveys are needed to better 
define structures before drilling, or if the features present 
are not attractive enough to warrant further interest.
    One of the concerns often expressed in Canada about 
offshore seismic acquisitions is what are the impacts of 
seismic surveys on marine life? While there has been 
substantial research that has been conducted to determine the 
impact on ocean life and additional research is ongoing, 
current research has indicated there is minimal risk of 
mortality in marine mammals, fish and invertebrates, 
invertebrates being species such as crab, shrimp, lobster, 
those type of things.
    Marine mammals, depending on the species and proximity, can 
experience temporary changes to hearing thresholds. Research 
has also indicated that there has been no mortality among 
invertebrates and that government, academia and industry 
continue to invest in research related to seismic impacts to 
further broaden the body of knowledge.
    Recognizing there is concern, industry has undertaken a 
number of mitigation measures to reduce some of the risks 
associated with seismic activity. For example, air source 
arrays must be shut down immediately if an endangered marine 
mammal or sea turtle is observed within 500 meters or half a 
mile of a seismic vessel. Surveys must also be planned to avoid 
dispersion of any groups of spawning fish from known spawning 
areas.
    Also seismic surveys in Atlantic Canada are scheduled 
during optimum weather conditions, which tends to be between 
June and September, largely because of the wave heights 
experienced in Atlantic Canada. Those are the very same months, 
of course, that there is an awful lot of offshore fishing 
activity, and we have put industry mitigation efforts in place 
to avoid conflict with the fishing industry. We have 
communication, direct communication with them, to allow them to 
understand where seismic activity is taking place. We have a 
single point of contact with the operator so that the fishing 
industry can have a specific person to speak with. We also have 
examiners on seismic vessels from the fishing industry so they 
can resolve any situations that may occur.
    In conclusion, I wish to thank you for the invitation to 
present in front of you today. We have had seismic activity off 
of Canada for many, many years and have seen no impact and our 
activity continues.
    The Chairman. Thank you for your testimony.

    [Prepared statement of Mr. Barnes follows:]
 Prepared Statement of Paul Barnes, Manager, Atlantic Canada, Canadian 
                   Association of Petroleum Producers

 Marine Seismic Surveys: The Search for Oil and Gas Offshore Atlantic 
                                 Canada

           canadian association of petroleum producers (capp)

    <bullet> Represents Canadian upstream oil and gas sector 
            (approximately 100 member companies)

    <bullet> Members explore for, develop and produce natural gas, 
            natural gas liquids, crude oil, and oil sands throughout 
            Canada

    <bullet> Members produce about 90 percent of Canada's natural gas 
            and crude oil

    <bullet> Key focus areas:

          --  Education

          --  Communications and outreach

          --  Policy and regulatory advocacy

          --  Industry performance

    <bullet> Offices in St. John's, Ottawa, Calgary and Victoria
                        atlantic canada offshore

    <bullet> Bringing substantial benefits to region:

          --  Directly employs over 7,000 people (thousands more 
        indirectly)

          --  Supports over 800 local supply/service companies

          --  Cumulative expenditures since 1996--over $31 billion in 
        NL, over $8 billion in NS

          --  Impact of production on provincial Gross Domestic Product 
        (GDP)

                  *  Oil production accounts for 30 percent GDP in NL

                  *  Mining and oil and gas production account for 2 
                percent of GDP in NS

    <bullet> Five producing projects

    <bullet> Exploration ongoing
                    what is a marine seismic survey?

    <bullet> Uses sound energy to map geological structures under the 
            seabed

    <bullet> Vessels tow devices that use compressed air to produce 
            pulses of high energy, low frequency sound waves

    <bullet> Sound waves can penetrate more than 6,000 metres below the 
            sea floor

    <bullet> Travel through the water and into the rock layers beneath 
            the seabed

    <bullet> Bounce back to receivers (``hydrophones'') that measure 
            strength and return time

    <bullet> Types of seismic surveys:

          --  Two dimensional (2D): Uses one sound source and one set 
        of receivers

          --  Three dimensional (3D): Uses multiple synchronized sound 
        sources and hydrophones

          --  Four dimensional (4D): Uses multiple synchronized sound 
        sources and hydrophones with the added dimension of time (i.e., 
        a 3D survey is conducted multiple times over the same location 
        at different periods to compare data)

          --  Geohazard or well site survey: Uses one sound source and 
        one set of receivers towed over a small area prior to drilling 
        to check for possible hazards

          --  Vertical Seismic Profiles: Hydrophones are lowered into a 
        drilled well and sound is produced at the surface to give a 
        detailed view of the geology near the well bore
                   why are seismic surveys conducted?

    <bullet> Seismic surveys provide information on the depth, position 
            and shape of underground geological formations that may 
            contain oil or gas

    <bullet> Data is processed to improve the quality and filter out 
            background ``noise''

    <bullet> End result is a detailed picture of the structures and 
            rock formations in the survey area

    <bullet> Geophysicists look for specific features that could 
            indicate whether oil or gas might be present:

          --  Sedimentary basins

          --  Faults

          --  Ancient reefs or buried former beaches

    <bullet> Seismic surveys help companies decide whether:

          --  The available information is sufficient to justify 
        drilling an exploratory well

          --  Additional surveys are needed to better define the 
        structures before drilling

          --  The features present are not attractive enough to warrant 
        further interest

    <bullet> Survey results do not show definitively whether oil or gas 
            are present
        what are the impacts of seismic surveys on marine life?

    <bullet> Substantial research has been conducted to determine 
            whether seismic surveys have an impact on ocean life and 
            additional research is ongoing:

          --  Current research indicated there is minimal risk of 
        mortality in marine mammals, fish and invertebrates

          --  Marine mammals, depending on species and proximity, can 
        experience temporary changes to hearing thresholds and in some 
        extreme cases these effects can be permanent

          --  Laboratory research conducted in NL show no mortality 
        among invertebrates (crab, shrimp, scallop, etc.) but showed 
        some non-life threatening physical effects

          --  Governments, academia and industry continue to invest in 
        research to further broaden the body of knowledge

    <bullet> Carefully designed mitigation measures are applied to 
            seismic surveys to minimize risk to marine life
                        environmental protection

    <bullet> Comprehensive Environmental Assessments (EAs) are 
            completed prior to conducting surveys which must be 
            approved by regulators

    <bullet> Seismic vessels and their operators are guided by the 
            Statement of Canadian Practice with Respect to Mitigation 
            of Seismic Sound in the Marine Environment

          --  Outlines mitigation measures that must be considered in 
        the planning of seismic surveys

          --  Examples:

                  *  Air source arrays must be shut down immediately if 
                an endangered marine mammal or sea turtle is observed 
                within 500 metres

                  *  Surveys must be planned to avoid dispersion of 
                groups of spawning fish from known spawning areas
                impact on fishing and marine industries

    <bullet> Seismic surveys in the Atlantic Canada offshore must be 
            scheduled during optimal weather conditions (June to 
            September) because:

          --  Surveys cannot take place if waves are higher than 3 
        metres

          --  Rough seas affect quality of data

    <bullet> June to September is also peak fishing season in Atlantic 
            Canada

    <bullet> Effective communication and coordination between petroleum 
            and fishing industries is critical
 proactive mechanisms in place to minimize potential conflicts between 
                            both industries

    <bullet> Fishing industry advised of marine seismic survey activity 
            through direct communication and communiquees with fishing 
            industry members, public service announcements, etc.

    <bullet> In NL a single point of contact is appointed by the 
            operator that fishers can go to for precise information 
            about geographic location and potential impacts

    <bullet> A fisheries liaison officer (FLO) may be required on board 
            the seismic vessel--the FLO communicates directly with 
            fishing vessels in the field to resolve situations where 
            overlap and conflicts could occur

    <bullet> Working with the fishing industry:

          --  In NL, One Ocean was created as a communication and 
        liaison organization between fishing and petroleum industries

          --  Fisheries advisory committee in NS advises regulator on 
        minimizing impact on fishing industry

    <bullet> Compensation programs in place for damage to fishing 
            vessels or gear
                     more information available at:
                              www.capp.ca
                            www.oneocean.ca

                                 ______
                                 

    The Chairman. Dr. Knapp.

 STATEMENT OF JAMES H. KNAPP, Ph.D., CHAIR, USC FACULTY SENATE 
   AND PROFESSOR, DEPT. OF EARTH & OCEAN SCIENCES, SCHOOL OF 
   EARTH, OCEAN, & ENVIRONMENT, UNIVERSITY OF SOUTH CAROLINA

    Dr. Knapp. Good morning, Mr. Chairman, and thank you for 
the opportunity to be with you here today, and thank you, 
Congressman Duncan, for the very generous introduction. It is 
my great pleasure and high honor to be here this morning, and I 
thank you as well as the Ranking Member and the other members 
of the committee for this opportunity.
    For the record, I am James H. Knapp, professor in the 
Department of Earth and Ocean Sciences in the School of the 
Earth, Ocean and Environment at the University of South 
Carolina, and I currently serve as the Chair of the Faculty 
Senate at the University of South Carolina Columbia campus.
    At the risk of some repetition from the introduction, by 
way of background, I was born and raised in California, have 
lived in 6 and traveled to 49 States of this great country of 
ours, and through my profession as an Earth scientist, I have 
worked in or visited more than 40 countries. I hold a Bachelor 
of Science degree with distinction in geological sciences from 
Stanford University, and a Ph.D. in geology from the 
Massachusetts Institute of Technology.
    From 1988 to 1991, I worked with Shell Oil, both in 
Houston, Texas, and in New Orleans, Louisiana, where I 
participated directly in oil and gas exploration in the Gulf of 
Mexico. For more than 20 years since then, my research team and 
I have carried out both fundamental and applied research in the 
design, acquisition, processing and interpretation of seismic 
surveys, both onshore and offshore.
    Marine seismic surveys have been carried out in the United 
States and internationally for decades and represent the single 
most important tool for evaluating oil and gas potential in the 
subsurface. These surveys employ acoustic or sound energy to 
interrogate the subsurface of the Earth in much the same way 
that a doctor images the interior of a human body with a CAT, 
or a computerized axial tomography scan.
    In the early days of seismic surveying, a typical success 
rate for wildcat wells was around 3 in 10. With the advent of 
3D seismic surveys and in some cases even 4D seismic surveys, 
the success rate is now typically 7 out of 10, greatly changing 
our ability to evaluate subsurface resources.
    In most cases, we now have significant confidence in not 
only the presence of a petroleum resource, but also the 
estimated volume and consequently the economic value of that 
resource before ever spudding a well, primarily as a result of 
seismic technology. In addition, scientific work within our 
research group in the past several years using onshore seismic 
and well data has called into question more than 30 years of 
research on the Atlantic continental margin, suggesting that 
many previous interpretations of the geologic evolution were in 
error, and accordingly, so potentially is the estimate of the 
resource potential.
    One of the most commonly cited criticisms of marine seismic 
operations is the punitive and adverse effect acoustic energy 
has on marine life and in particular, on marine mammals. 
Established in 1991, the Working Group on Marine Mammal Unusual 
Mortality Events under the aegis of the Office of Protected 
Resources with the National Oceanic and Atmospheric 
Administration, has formally identified a total of 60 marine 
mammal UMEs, unusual mortality events, in U.S. waters over the 
last 23 years.
    In most cases, 29 of those 60, where a cause has been 
determined, infections and/or biotoxins were indicated. Of the 
60 UMEs, not a single one has been attributed to marine seismic 
operations.
    The incidence of UMEs is statistically the same between the 
Atlantic, Pacific and Gulf of Mexico regions during a period 
when extensive commercial seismic surveys have been conducted 
in the Gulf of Mexico, but not on the Atlantic and Pacific 
margins. The two States with the most declared UMEs are 
California and Florida, neither of which has been the site of 
commercial marine seismic acquisition during the period in 
which records have been compiled. These data, along with 
others, suggest that the contention that marine seismic surveys 
result in mass mortality events of marine mammals is likely a 
chimera.
    The most recent estimates by the Bureau of Ocean Energy 
Management for the resource potential on the Atlantic OCS range 
from about 3.5 to 18 billion barrels of oil equivalent. Using 
seismic data from pre-1988, these estimates are undoubtedly 
conservative and lack the analysis which would be afforded 
through new state-of-the-art seismic data.
    We face a truly historic opportunity to fairly evaluate the 
energy and mineral resource base of the Atlantic OCS through 
acquisition of new seismic surveys. In South Carolina, we are 
working to establish the Atlantic Coast Center for Energy 
Sustainability through Science and Engineering, or ACCESSE. Our 
vision is to develop a sustainable energy industry based on 
conventional, unconventional, renewable and alternative energy 
for South Carolina and the Southeastern region, helping to 
train a workforce and creating jobs based on locally derived 
energy resources.
    There could be no more important first step than to 
initiate new seismic surveys on the Atlantic OCS, and we stand 
ready and able to help move that effort forward in the regional 
and national interest.
    Thank you, Mr. Chairman. I appreciate the opportunity to be 
here and I will answer any questions.
    The Chairman. We appreciate your testimony.
    [The prepared statement of Dr. Knapp follows:]
   Prepared Statement of James H. Knapp, Ph.D., Professor, School of 
        Earth, Ocean & Environment, University of South Carolina
    Good morning, Mr. Chairman and thank you both for the introduction 
and for the invitation to appear before this subcommittee today. It is 
my great pleasure and high honor to be here, and I thank you, as well 
as the Ranking Member and the other members of the committee for this 
opportunity. For the record, I am James H. Knapp, Professor in the 
Department of Earth and Ocean Sciences in the School of the Earth, 
Ocean, and Environment at the University of South Carolina, and I 
currently serve as Chair of the Faculty Senate at the University of 
South Carolina Columbia campus.
                educational and professional background
    By way of background, I was born and raised in California, have 
lived in 6 and traveled to 49 States, and through my profession as an 
Earth scientist, have worked in or visited more than 40 countries. I 
hold a Bachelor of Science degree with distinction in geological 
sciences from Stanford University, and a Ph.D. in geology from the 
Massachusetts Institute of Technology. From 1988 to 1991 I worked with 
Shell Oil, where I participated directly in oil and gas exploration in 
the Gulf of Mexico. For more than 20 years since then, my research team 
and I have carried out both fundamental and applied research in the 
design, acquisition, processing, and interpretation of seismic surveys, 
both onshore and offshore.
                        marine seismic surveying
    Marine seismic surveys have been carried out in the United States 
and internationally for decades, and represent the single most 
important tool for evaluating oil and gas potential in the subsurface. 
These surveys employ acoustic, or sound, energy to interrogate the 
subsurface of the Earth, in much the same way that a doctor images the 
interior of a human body with a CAT (computerized axial tomography) 
scan (Figures 1 and 2). In the early days of seismic surveying, the 
typical success rate for wildcat wells was around 3 in 10. With the 
advent of 3-D seismic surveys, the success rate is now typically 7 out 
of 10, greatly changing our ability to evaluate subsurface resources. 
In most cases, we now have significant confidence in not only the 
presence of a petroleum resource, but also the estimated volume and 
consequently the economic value of that resource before ever spudding a 
well, primarily as a result of seismic technology.
    In addition, scientific work within our research group in the past 
several years, using onshore seismic and well data, has called into 
question more than 30 years of research on the Atlantic continental 
margin, suggesting that many previous interpretations of the geologic 
evolution were in error, and accordingly, so is the estimate of the 
resource potential.
                     ume (unusual mortality events)
    One of the most commonly cited criticisms of marine seismic 
operations is the putative adverse effect acoustic energy has on marine 
life, and in particular on marine mammals. Established in 1991, The 
Working Group on Marine Mammal Unusual Mortality Events under the aegis 
of the Office of Protected Resources with the National Oceanic and 
Atmospheric Administration (NOAA) has formally identified a total of 60 
marine mammal UMEs in U.S. waters over the last 23 years (Figure 3). In 
most cases (29) where a cause has been determined, infections and/or 
biotoxins were indicated (Figure 4). Of the 60 UMEs, not a single one 
has been attributed to marine seismic operations.
    The incidence of UMEs is statistically the same between the 
Atlantic, Pacific, and Gulf of Mexico regions (Figure 5), during a 
period when extensive commercial seismic surveys have been conducted in 
the GOM, but not on the Atlantic and Pacific margins. The two States 
with the most declared UMEs are California and Florida, neither of 
which has been the site of commercial marine seismic acquisition during 
the period in which the records have been compiled. These data, along 
with others (Figure 6) suggest that the contention that marine seismic 
surveys result in mass mortality events of marine mammals is likely a 
chimera.
                 economic potential of the atlantic ocs
    The most recent estimates by the Bureau of Ocean Energy Management 
for the resource potential on the Atlantic OCS range from 3.5-18 Bboe. 
Using seismic data from pre-1988, these estimates are undoubtedly 
conservative, and lack the analysis which would be afforded through 
new, state-of-the-art seismic data. We face a truly historic 
opportunity to fairly evaluate the energy and mineral resource base of 
the Atlantic OCS through acquisition of new seismic surveys. In South 
Carolina, we are working to establish the Atlantic Coast Center for 
Energy Sustainability through Science and Engineering (ACCESSE). Our 
vision is to develop a sustainable energy industry based on 
conventional, unconventional, renewable, and alternative energy for 
South Carolina and the southeastern region, helping to train a 
workforce and creating jobs based on locally derived energy resources. 
There could be no more important first step than to initiate new 
seismic surveys on the Atlantic OCS, and we stand ready and able to 
help move that effort forward in the regional and national interest.
                            acknowledgements
    Members of the Tectonics and Geophysics Lab (TGL) (Figure 8) 
contributed to this document, including Mr. Andrew Pollack and Ms. 
Susie Boote.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Mr. Miller.

   STATEMENT OF RICHIE MILLER, PRESIDENT, SPECTRUM GEO, INC.

    Mr. Miller. Chairman Lamborn, Ranking Member Holt and 
members of the subcommittee, good morning. I appreciate the 
opportunity to be here today to discuss the need for America to 
better understand our offshore oil and gas resources, 
specifically those in the Atlantic.
    My name is Richie Miller. I am president of Spectrum Geo, 
Inc., a company providing seismic data to oil and gas 
exploration and production companies worldwide. We are 
headquartered in Houston, Texas. Spectrum is a member of the 
International Association of Geophysical Contractors, the trade 
association of the global geophysical industry, and a member of 
the National Ocean Industries Association, which represents all 
segments of the offshore energy industry. We appreciate the 
committee's attention to this issue and we are pleased that 
Congress is looking into this matter for the Nation's continued 
progress toward energy security and economic growth.
    Whether in private business or government, the best 
decisions are made when we have the best available data. This 
is true of our Nation's oil and gas resources. It only makes 
sense for us to understand what the resource base and resource 
value is as the Federal Government begins developing the next 
OCS 5-year leasing plan. The best tool to do this is seismic.
    The benefits of modern seismic surveys are numerous. They 
make offshore energy production safer and more efficient by 
greatly reducing the drilling of unsuccessful dry holes. We no 
longer explore with the drill bit. Seismic surveys make this 
possible.
    To better understand the resource potential in the 
Atlantic, we need to acquire modern seismic data. The last 
surveys of the Atlantic OCS were conducted over 30 years ago. 
Older, low-tech data that exists does not image medium to deep 
plays and does not image the basin's architecture, which is 
imperative to understanding the Atlantic margin play.
    But before new seismic data can be acquired in the 
Atlantic, BOEM must complete a programmatic environmental 
impact statement. A record of decision, or ROD, was initially 
proposed to be released earlier. However, we now understand 
that that ROD is scheduled for March or April of this year. It 
will take at least a year after the EIS is issued before new 
seismic data is in hand. It is critical to have new seismic 
data to help inform future Atlantic leasing decisions. With 
DOI's initial work on the next 5-year plan for 2017-22 
beginning later this year, time is of the essence.
    Recently BOEM officials have indicated that the delay in 
obtaining new seismic data does not preclude them from 
ultimately including new areas such as the Atlantic in the next 
5-year plan. We appreciate this perspective and agree that the 
next 5-year plan should be guided by modern survey data.
    The seismic industry has demonstrated for more than 40 
years its ability to operate seismic exploration activities in 
an environmentally safe and responsible manner. Contrary to 
recent statements by critics who oppose opening the Atlantic, 
the oil and gas industry has demonstrated the ability to 
operate seismic activities in a manner that protects marine 
life, as recently affirmed in a statement from the National 
Marine Fisheries Service.
    I also want to underscore what is at stake for our country 
and why this issue matters to your constituents. A recent study 
produced by Quest Offshore for NOIA and API finds that opening 
the Atlantic to oil and natural gas exploration and development 
would generate $51 billion in new Federal and State revenue, 
generate nearly 280,000 jobs, contribute $23 billion per year 
to the U.S. economy, and could produce an incremental 1.3 
million barrels of oil equivalent per day, which would reduce 
our need for imported oil.
    The Nation's energy and economic security demands that 
these Atlantic resources be safely explored and developed, and 
the process begins with acquiring new seismic data. We cannot 
afford to blindly make decisions regarding the future of oil 
and gas leasing in the Atlantic. Americans deserve public 
policy decisions that are made based on the best information 
possible. Modern seismic surveys provide that information. 
Let's allow science to help us understand what resources we 
have and work together to enhance our energy and economic 
security.
    Thank you for the opportunity to testify before this 
subcommittee.
    The Chairman. Thank you for your testimony.

    [Prepared statement of Mr. Miller follows:]
   Prepared Statement of Richie Miller, President, Spectrum Geo, Inc.
    Chairman Lamborn, Ranking Member Holt, members of the subcommittee: 
Good afternoon. I appreciate the opportunity to be here today to 
discuss the need for America to access offshore oil and gas resources, 
specifically those in the Atlantic.
    My name is Richie Miller. I am President of Spectrum Geo, Inc. 
(Spectrum), a company providing multi-client geoscience data to oil and 
gas exploration and production (E&P) companies worldwide. We are 
headquartered in the United States. We are a member of the 
International Association of Geophysical Contractors, the trade 
association of the global geophysical industry and also a member of the 
National Ocean Industries Association. I would like to thank the 
Subcommittee on Energy and Mineral Resources for the opportunity to 
testify at this oversight hearing regarding ``Seismic Exploration and 
the Future of the Atlantic OCS.''
    We are pleased that Congress is looking into this most important 
matter for the Nation's continued progress toward energy independence, 
economic vitality and energy security. Although the United States is 
set to surpass Saudi Arabia and Russia to become the world's top oil 
producer by 2015, in order to meet continued demand we must make new 
areas of the federal outer continental shelf (OCS) available for oil 
and gas exploration. The United States has been successful in producing 
its oil and gas resources because we have historically been willing to 
explore new areas.
    Today, I would like to focus my comments on the need to better 
understand the resource base of the Atlantic OCS and the challenges in 
providing policymakers and regulators with the information they need to 
make informed decisions based on the best available data. Also, I think 
it is critical to clearly explain the relationship between acquiring 
new seismic data for the Mid- and South Atlantic OCS and the 
development of the next Five-Year OCS Leasing Plan (2017-2022).
    I would first like to give a broadened description of my company, 
Spectrum Geo. Our company is engaged in acquiring non-exclusive seismic 
data, processing it and licensing these products to oil and gas 
companies. That means we do the work (and take the financial risks) 
needed to deliver oil and gas companies the ability to use modern 
seismic imaging to explore an area new to them (or new to the entire 
industry). We repeatedly license the seismic data to oil and gas 
companies for a fee, but retain the underlying ownership. By acquiring 
the data once and making it available to any oil and gas company, our 
industry avoids duplicating these surveys. We also provide the same 
products to Bureau of Ocean Energy Management (BOEM) for their use in 
evaluating the OCS resource base, ensuring they receive fair market 
value when they lease OCS lands, and making the many conservation 
decisions required of them as they administer their obligations under 
the OCS Lands Act.
atlantic programmatic eis and the five-year lease sale planning process
    Whether in private business or government, the best decisions are 
generally made when we have the best available data. This is true of 
our Nation's oil and gas resources. It only makes sense for us to 
understand what the resource base and resource value is.
    BOEM is currently in the process of producing a Programmatic 
Environmental Impact Statement (PEIS) to evaluate ``potential 
significant environmental impacts of multiple geological and 
geophysical activities on the Atlantic Outer Continental Shelf.'' It is 
very important to note that these G&G activities will not only be used 
to identify potential oil and gas resources, but also to identify 
suitable areas to place offshore renewable energy facilities. Seismic 
surveys enable our Nation to reach its full energy potential by truly 
using an ``all-of-the-above'' approach. A draft PEIS was published in 
the Federal Register on March 30, 2012, and underwent a 90-day comment 
period.
    A record of decision (ROD) was initially proposed to be released in 
October 2013; however, we now understand that the ROD is scheduled for 
March or April 2014. We are concerned about potential delays in the 
issuance of an ROD as these delays create difficulties in scheduling 
for permits and vessels. Having sufficient new seismic data to inform 
future Atlantic leasing decisions is critical. With DOI's initial work 
on the next Five-Year Plan for 2017-2022 beginning later this year, 
time is of the essence.
    It will take at least a year after the EIS is issued before new 
seismic data is in hand. This is because industry must first obtain 
permits from NOAA (under the Marine Mammal Protection Act); await 
BOEM's statutorily required consultations with all the impacted coastal 
States (under the Coastal Zone Management Act); secure an actual G&G 
permit from BOEM; and then go about conducting the surveys and 
interpreting the data. So with the EIS delayed into 2014, we are very 
unlikely to have any new data in hand until well after the Department 
has already begun scoping for the 2017-2022 Five-Year Plan. However 
recent public statements from BOEM officials indicate that this delay 
in obtaining new seismic data does not preclude them from ultimately 
including new areas such as the Atlantic in the 2017-2022 Five-Year 
Plan. We appreciate this perspective and agree that the next Five-Year 
Plan should be guided by modern survey data.
    Because acquiring and interpreting modern seismic data provides a 
greater understanding of where oil and gas reserves exist and how much 
are likely in place, having modern seismic data prior to a lease sale 
will allow industry to make more informed bids. This will likely result 
in more bids and higher bids (and thus more revenue to the Federal 
Treasury) since industry is reluctant to bid on blocks where there is 
little or no seismic data. Modern seismic imaging consistently brings 
more players to bid on offshore leases, creating more competition and 
driving the cost of leases higher. This is a phenomenon we are seeing 
globally as occurred recently in Uruguay with the government receiving 
$1.2 billion lease bids and in Brazil where $2.0 billion in lease bids 
were received. Oil and gas producers have the capital to explore 
frontier areas and are always looking for new opportunities.
     why new seismic is needed for the mid- and south atlantic ocs
    It is very clear that seismic surveys are greatly needed in the 
Atlantic. It has been more than 30 years since geological & geophysical 
(G&G) surveys were conducted in Atlantic waters. BOEM currently 
estimates that the Mid- and South Atlantic OCS holds at least 3.3 
billion barrels of oil and 31.3 trillion cubic feet of natural gas. 
While these estimates are impressive, it is widely believed that modern 
seismic imaging using the latest technology will show much greater 
resources than the 30-year-old estimates. Thus, current estimates are 
outdated and, in all likelihood, grossly inaccurate.
    For the Atlantic OCS, we need to update our understanding of the 
resource, and modern seismic imaging is needed to make this evaluation. 
Better information enables the government's evaluation of the potential 
resource base as well as for prospecting for oil and natural gas 
reserves offshore. Older, low tech data that exists does not image 
medium to deep plays, and does not image the basin's architecture, 
which is imperative to understanding the Atlantic Margin play. The 
industry's array of new tools in the toolbox--reflection, gravity, 
magnetics, electromagnetic--can better help us understand the potential 
resource. By utilizing these tools and by applying increasingly 
accurate and effective interpretation practices, we can better locate 
and dissect prospective areas, identify the types of plays we are 
locating, and evaluate the potential resource base. Seismic surveys are 
the only feasible technology available to accurately image the 
subsurface and help us better understand what lies below the surface of 
the Earth before a single well is drilled.
    It is an amazingly useful scientific tool that allows us to 
accurately image the earth's crust down to depths in excess of 40,000 
feet, or more than 8 miles, below the ocean floor. Today, seismic 
surveys that use modern data acquisition techniques and then process 
that data by applying the massive computing power are able to produce 
sub-surface images which are much clearer and more accurate than those 
from decades ago, or even 5 years ago.
    There are reasons why geologists and geophysicists believe that the 
Atlantic OCS could have much more abundant oil and gas resources than 
we previously believed. First, the Atlantic Margin is proving to be 
quite productive in hydrocarbon production in areas like West Africa, 
Brazil and Nova Scotia.
    Second, exploration and development activities generally lead to 
increased resource estimates. For example, in 1987 the Minerals 
Management Service estimated only 9.57 billion barrels of oil in the 
Gulf of Mexico. With more recent seismic data acquisition and 
additional exploratory drilling, that estimate rose in 2011 to 48.4 
billion barrels of oil--a 500 percent increase.
    The benefits of modern seismic surveys are numerous. They make 
offshore energy production safer and more efficient by greatly reducing 
the drilling of ``dry holes'' (where no oil or gas is found). We no 
longer explore with the drill bit. Without seismic surveys, we would 
again be relegated to that. Because survey activities are temporary and 
transitory, it is the least intrusive and also the most cost-effective 
way to understand where recoverable oil and gas resources likely exist 
in the Mid- and South Atlantic OCS. Additionally, it is expected that 
the early surveys will be non-exclusive or multi-client, meaning they 
would be shared by all E&P companies. The data gathered in a one-time 
process could be used again and again.
    For the energy industry, modern seismic imaging reduces risk--both 
economic risk of exploration and production and also the associated 
safety and environmental risks. It also provides greater certainty by 
increasing the likelihood that exploratory wells will successfully tap 
hydrocarbons and helping us avoid drilling for oil and gas in areas 
where we won't likely be successful. It reduces the number of wells 
that need to be drilled in a given area, thus reducing the overall 
footprint for exploration.
    In addition to modern seismic survey techniques, another key 
technological advancement has come with the help of the computing 
industry. The development of more powerful computers at diminishing 
prices allowed us to further leverage this new 3D acquisition tool. 
Ever greater computing power freed the creativity and innovation of 
data processing professionals to develop increasingly complex 
algorithms that address the vast number of challenges offered by the 
complex earth. And these complex algorithms are now being applied 
against an ever expanding number of data points.
    With substantially larger amounts of data, and with more complex 
processing techniques that are run on increasingly powerful computers, 
we are now able to identify with accuracy drilling targets the size of 
a parking lot 3 miles deep into the earth (and sometimes through a mile 
of water!). This enables the drilling engineers to do what they do 
best--hit those targets.
    Today, we are applying these new techniques in older producing 
areas--areas that are known to generate and trap oil and gas. We are 
able to use the fine scale resolution offered by today's imaging 
techniques to find reserves that went unseen using the older 
techniques. Additionally, to maximize production from existing 
reservoirs, another dimension in technology--4D--has been recently 
introduced. By acquiring 3D at the same location repeatedly, it is now 
possible to have a motion picture visualizing the behavior and 
evolution of fluids in the reservoir as it is produced.
                      environmentally responsible
    The seismic industry has demonstrated for more than 40 years its 
ability to operate seismic exploration activities in an environmentally 
safe and responsible manner. Despite recent statements by critics who 
oppose opening up the Atlantic, the oil and gas industry has 
demonstrated the ability to operate seismic exploration activities in a 
manner that protects marine life. In the May 11, 2012, publication of 
the Federal Register, the National Marine Fisheries Service (NMFS), in 
response to a public comment associated with a recent industry seismic 
survey in Alaska (comment No. 9), stated the following: ``To date, 
there is no evidence that serious injury, death or stranding by marine 
mammals can occur from exposure to airgun pulses, even in the case of 
large airgun arrays.'' (NOAA--National Marine Fisheries Service, 
Federal Register Notice May 11, 2012--Vol. 77, No. 92 Page 27723.)
    The geophysical industry takes a great deal of care and 
consideration of potential impacts to the marine environment. Because 
this is a priority, we implement mitigation measures to further reduce 
any potential impacts to marine mammals. Examples include the avoidance 
of important feeding and breeding areas, demarcation of exclusion zones 
around seismic operations, soft starts (gradual ramping up of a seismic 
sound source), and visual and acoustic monitoring by professionally 
trained marine mammal observers. Any activity in the Atlantic would be 
done with at least the same care and consideration for marine life.
    Additionally, the industry continues to invest millions of dollars 
into scientific research to fill any knowledge gaps that may exist in 
knowing how marine life interrelates to seismic operations. Research 
studies and operations monitoring programs designed to assess the 
potential impacts from seismic surveys have not demonstrated 
biologically significant adverse impacts on marine mammal populations. 
Industry continually monitors the effectiveness of the mitigation 
strategies it employs and funds research to better understand 
interactions between E&P operations and marine mammals.
        economic benefit of seismic and oil and gas exploration
    What is often understated is the economic benefit that comes from 
oil and gas exploration. A recent study produced by Quest Offshore for 
the American Petroleum Institute and National Ocean Industries 
Association finds that opening the Atlantic OCS to oil and natural gas 
exploration and development will add billions of dollars annually to 
the economy by 2035. Federal offshore lease sales under existing laws 
and regulations would be expected to result in offshore oil and natural 
gas exploration and production. The new exploration and production 
activity would require large amounts of investment and operational 
spending by oil and gas operators--an estimated $195 billion cumulative 
between 2017 and 2035, which would be primarily spent inside the United 
States and the Atlantic coast States.
    According to the study, by 2035, new Atlantic OCS activity could 
produce an incremental 1.3 million barrels of oil equivalent per day, 
generate nearly 280,000 jobs, contribute up to $23.5 billion per year 
to the U.S. economy, and generate $51 billion in Federal and State 
revenue--with most of the accrued State benefits going to Atlantic 
coastal States.
    The Nation's energy and economic security demands that these 
Atlantic resources be safely developed, and that long process begins 
with acquiring new seismic data.
                               conclusion
    This Nation cannot afford to blindly make decisions regarding the 
future of oil and gas leasing in the Atlantic. Americans deserve public 
policy decisions that are made based on the best information possible. 
Modern seismic surveys provide that information. Let's allow science to 
help us understand what resources we have.
    I hope this information adds a new perspective to your 
understanding of the contributions from the innovations and 
applications of geophysical data. Thank you for your time and attention 
today. I look forward to any questions you may have, and place myself, 
NOIA and the IAGC at your disposal if we can be of further service. I 
appreciate the opportunity to testify before the subcommittee.

                                 ______
                                 

  Questions submitted for the record from Chairman Lamborn to Richie 
                  Miller, President, Spectrum Geo Inc.
    Question. The seismic data from over 30 years ago that has been 
collected for the Atlantic not only used old technology but also 
covered a distance up to 50 miles from the shoreline. Is this the area 
that would be of interest to industry for the next round of seismic 
data collection or are there additional areas that would need to be 
surveyed for the first time?

    Answer. Interest in new data goes beyond 50 miles, outwards of 250 
miles is not out of the question.

    Question. At the hearing, there was a predominant focus on the Gulf 
of Mexico and Canada when discussing the way seismic could potentially 
be conducted in the Atlantic. Many other countries have robust seismic 
regulatory programs that have been successful in offshore seismic data 
acquisition for decades--as well as exploration and production. Can you 
provide us with additional examples we should look at as well as 
reiterate the programs that are used in the GOM and Canada? Do you 
believe the advent of seismic research in the Atlantic OCS would draw 
existing seismic companies based in and around the Gulf of Mexico to 
expand to the Atlantic seaboard?

    Answer. Seismic is acquired worldwide. Active areas currently are 
Brazil, Norway, UK North Sea, Ireland, Australia, many areas in the 
Mediterranean and Adriatic, including Israel, Lebanon, Greece, Croatia 
and Cyprus. Africa is active up and down the east and west coasts, with 
active projects in Gabon, Morocco, Mozambique, and Madagascar to name a 
few. Most of these countries have seismic regulatory programs, and if 
they do not the seismic industry abides by a standard code of 
principals in these areas.
    Most companies operating in the GOM would be interested in working 
in the Atlantic.

                                 ______
                                 

    The Chairman. Finally, Dr. Boesch.

    STATEMENT OF DONALD F. BOESCH, PRESIDENT, UNIVERSITY OF 
           MARYLAND CENTER FOR ENVIRONMENTAL SCIENCE

    Dr. Boesch. Mr. Chairman, Mr. Holt, and members of the 
subcommittee, my name is Donald Boesch, and I was one of the 
seven commissioners who comprised the National Oil Spill 
Commission about which Mr. Holt spoke, and I am pleased to be 
here to have the opportunity to testify on behalf of the former 
commissioners.
    As the Nation considers the expansion of offshore drilling 
to the East Coast of the United States, it is important to heed 
the lessons provided by the catastrophic blowout of the Macondo 
well in the Gulf of Mexico almost 4 years ago now. The 
explosion tore through the Deepwater Horizon and began a human, 
economic and environmental disaster that is still being played 
out in terms of the costs to people and to the economy that 
will exceed tens of billions of dollars.
    Mr. Holt basically summarized some of our findings, but let 
me just touch on the key issues related to the fact that this 
explosion, this incident in the Gulf, was completely 
preventable, and that it revealed through our report, as well 
as other reports and the testimony that has been going on in 
the courts in New Orleans, that as a result of systematic 
failures of not only BP, but the subcontractors, that really 
point to serious problems of risk management that affect the 
industry as a whole. And it was a result of the fact that as we 
moved into frontier areas, into deep water in the case of the 
Gulf, we weren't paying attention, adequate attention, to the 
kind of oversight and the kind of requirements that were 
needed. Other subsequent reports by the National Academy of 
Engineering, Federal agency investigators, as well as industry 
itself have supported the Commission's findings and reinforced 
our recommendations.
    Since we completed our service, we have all collectively 
followed through and watched what has gone on, and as Mr. Holt 
indicated, we have issued these report cards about how well we 
have responded to the recommendations, and I offer this for the 
record, Mr. Chairman, and have copies for members here.
    Overall, the response to our recommendations has been 
positive. The petroleum industry has established a Center for 
Offshore Safety and built blowout containment capabilities that 
didn't exist before that are now being developed and exported 
around the world. The Department of the Interior has 
implemented many of our recommendations to reduce conflicting 
incentives that existed within the former Minerals Management 
Service and approved the efficacy of regulatory programs.
    But that doesn't mean the job is done. As Mr. Holt 
indicated, there have been at least 17 incidences of well 
control since the Macondo well incident in the Gulf of Mexico, 
and in particular, many of these have occurred in shallow water 
environments which we thought we knew how to work in very well 
and largely related to the fact that we have an aging 
infrastructure that supports that previous development now 
operated by smaller companies which don't have the capacity 
that a BP does.
    This experience underscores the importance of implementing 
our recommendations, including the initiatives that the 
industry and government have taken are encouraging. But, of 
course, as was pointed out, Congress hasn't acted on our 
recommendations to it.
    There are several recommendations detailed in our 
testimony. I just want to highlight a few. Extending the period 
for approving exploration plans from 30 days to 60 days, this 
makes sense, particularly in a new area like we perceive in the 
Atlantic, for example; providing whistleblower protection 
involved for offshore drilling operations, the same kind of 
protection that we guarantee in other comparable settings; 
increasing the liability cap from the really inadequate level 
of $75 million that is basically off by three orders of 
magnitude in terms of the cost of this incident; increasing the 
limit of $1 billion per incident payouts from the Oil Spill 
Liability Fund; and to provide a mechanism to pay for the 
appropriate oversight of the energy industry, regulation of the 
industry, by the industry as opposed to the taxpayer, as many 
other regulated industries do.
    When the Exxon Valdez spill occurred in 1989, Congress was 
quick to act. It passed legislation that made maritime 
transportation safer, provided new capabilities for dealing 
with oil spills. But we kind of, as a Nation, fell asleep at 
the wheel as we developed our oil resources in a self-reliant 
way in the deeper waters of the Gulf of Mexico and we should 
learn the lesson. So we think that Congress should follow that 
and take heed and act with needed legislation.
    This is important as we consider the Atlantic Coast because 
we would like to see that we have those regulations, that they 
be codified by Congress and in place as we proceed in frontier 
areas. Second, we recommend that these frontier areas be very 
carefully studied. We learned by the lack of knowledge that we 
had on the Gulf. We thought we knew a lot about the Gulf. We 
were surprised.
    And in particular, as a resident of the Atlantic Coast, as 
a resident of Maryland, I look at the interests of, say, the 
Commonwealth of Virginia of developing resources there from the 
standpoint that Ocean City is as close to some of those areas 
as is Virginia Beach. So the whole region, Delaware, New Jersey 
and so on, all have a common stake and interest and are very 
concerned about its ecosystems, but also its tourist industry 
as we go forward.
    So finally, let me just say that offshore drilling has a 
substantial potential to contribute to the Nation's oil and gas 
supplies and energy security. My fellow commissioners and I 
continue to encourage Congress, the executive branch and the 
oil and gas industry to take the necessary steps to ensure that 
is done safely.
    Thank you.

    [Prepared statement of Dr. Boesch follows:]
   Prepared Statement of Donald F. Boesch, President, University of 
               Maryland Center for Environmental Science
                            i. introduction
    Chairman Lamborn, Ranking Member Holt and members of the 
subcommittee, my name is Donald F. Boesch, President of the University 
of Maryland Center for Environmental Science. I was one of seven 
commissioners who comprised the National Commission on the BP Deepwater 
Horizon Oil Spill and Offshore Drilling. I thank you for the 
opportunity to testify today.
    As the Nation considers the expansion of offshore drilling to the 
East Coast of the United States, I believe it is important to evaluate 
the lessons provided by the catastrophic blowout of the Macondo well 
almost 4 years ago.
    The explosion that tore through the Deepwater Horizon drilling rig 
on April 20, 2010, as the rig's crew completed drilling the exploratory 
Macondo well deep under the waters of the Gulf of Mexico, began a 
human, economic, and environmental disaster that is still playing out.
    Eleven crew members died, and others were seriously injured, as 
fire engulfed and ultimately destroyed the rig. For almost 3 months 
more than four million barrels of oil gushed uncontrolled into the 
Gulf--threatening livelihoods, the health of Gulf coast residents and 
of those responding to the spill, precious habitats, and even a unique 
way of life. A treasured American coast already battered and degraded 
from years of neglect and mismanagement as well as natural disasters, 
faced yet another blow as the oil spread and washed ashore. Five years 
after Hurricane Katrina, the Nation was again transfixed, seemingly 
helpless, as this new tragedy unfolded in the Gulf. The costs from this 
one industrial accident are still not yet fully adjudicated and 
counted, but it is already clear that the impacts on the region's 
natural systems and people were enormous, and that economic losses will 
total tens of billions of dollars.
    On May 22, 2010, President Barack Obama announced the creation of 
the National Commission on the BP Deepwater Horizon Oil Spill and 
Offshore Drilling (the Commission): an independent, nonpartisan entity, 
directed to provide thorough analysis and impartial judgment. The 
President charged the Commission to determine the causes of the 
disaster, and to improve the country's ability to respond to spills, 
and to recommend reforms to make offshore energy production safer. And 
we were told to follow the facts wherever they led.
    After an intense 6-month effort to fulfill the charge, the 
Commission released its final report on January 10, 2011, 3 years ago 
today. As a result of our investigation, we concluded:

    <bullet> The explosive loss of the Macondo well could have been 
            prevented.
    <bullet> The immediate causes of the Macondo well blowout could be 
            traced to a series of identifiable mistakes made by BP, 
            Halliburton, and Transocean that reveal such systematic 
            failures in risk management that they place in doubt the 
            safety culture of the entire industry.
    <bullet> Deepwater energy exploration and production, particularly 
            at the frontiers of experience, involve risks for which 
            neither industry nor government has been adequately 
            prepared, but for which they can and must be prepared in 
            the future.
    <bullet> To assure human safety and environmental protection, 
            regulatory oversight of leasing, energy exploration, and 
            production require substantial reforms, probably even 
            beyond those significant reforms the Department of the 
            Interior has already initiated since the Deepwater Horizon 
            disaster.
    <bullet> The technology, laws and regulations, and practices for 
            containing, responding to, and cleaning up spills lag 
            behind the real risks associated with deepwater drilling 
            into large, high-pressure reservoirs of oil and gas located 
            far offshore and thousands of feet below the ocean's 
            surface. Government must close the existing gap and 
            industry must support that effort.
    <bullet> Scientific understanding of environmental conditions in 
            sensitive environments in deep Gulf waters, along the 
            region's coastal habitats, and in areas proposed for more 
            drilling, such as the Arctic, is inadequate. The same is 
            true of the human and natural impacts of oil spills.

    We reached these conclusions and made our recommendations in a 
constructive spirit. Our goal was to make American offshore energy 
exploration and production far safer, today and in the future.
    Since we released our report, several other highly qualified 
committees and organizations have also completed analyses of what went 
wrong with the Macondo well and what should be done to protect against 
such a catastrophe happening again. These include the Department of the 
Interior-Coast Guard Joint Investigation, several studies of the 
National Academies of Sciences and Engineering, and even some industry 
analyses. I wish to point out that all of these studies have supported 
the Commission's findings and often reinforced its recommendations.
    The Commissioners, however, were not satisfied with merely issuing 
a report. Too many task forces and commissions, after devoting 
significant time and effort to their assignments, watch the value of 
their contribution diminish as other issues and priorities command 
public attention. As a group, we vowed not to let the spotlight fade 
from our work and elected to do what we can to advance the 
implementation of our recommendations so that the Nation can move 
forward to secure the oil and gas off our shores in a safer, more 
environmentally responsible manner.
    To this end, we established an Oil Spill Commission Action (OSCA) 
project to monitor progress in making offshore drilling safer and more 
environmentally protective, and to continue to engage the many actors 
how can implement the recommendations. On the second and third 
anniversaries of the explosion, OSCA issued ``report cards''--the most 
recent was released on April 17, 2013--addressing the progress that has 
been made in implementing the Commission's recommendations. I have 
brought copies of this report for committee members and would like to 
request that it be entered into the record.
    As our report cards have indicated, we have been gratified by the 
positive response to many of our recommendations. The oil industry, for 
instance, has established a Center for Offshore Safety, implementing 
one of our major recommendations. Similarly the Department of the 
Interior has implemented many of our recommendations to reduce 
conflicting incentives that had existed in the Minerals Management 
Service, and improve the efficacy of its regulatory programs. All in 
all, we have made important improvements in the way the Nation manages 
its offshore oil and gas exploration and production.
                   ii. congress needs to take action
    But that does not mean that the job is done. A recent investigation 
by WWL-TV in New Orleans found that there have been 17 events over the 
last 4 years in the Gulf of Mexico where the drilling crew lost control 
of a well. There were 7 such events reported through the first 10 
months of 2013 alone. It was a loss of well control that resulted in 
the Deepwater Horizon catastrophe. These incidents also show that risks 
occur closer to shore and in shallower water, where older 
infrastructure and smaller operating companies prevail.
    This experience demonstrates the importance of implementing the 
Commission's recommendations. As I said, the initiatives taken by the 
Administration and industry have been encouraging. However, through 
today, coincidentally the third anniversary of the submission of the 
Commission's report, Congress has yet to enact any of the 
recommendations we made to it to improve the management and safety of 
offshore drilling.
    With respect to improving safety and environmental protection, we 
continue to urge Congress to codify the organizational changes the 
Department of the Interior has made in its regulatory programs. 
Although these were not as extensive as the Commission recommended, 
they are a substantial improvement over the organization that existed 
when the Deepwater Horizon disaster occurred. Congress should make 
these improvements permanent.
    The Commission's other recommendations for improving safety and 
environmental protection included making the following modifications to 
the Outer Continental Shelf Lands Act (OCSLA):

    <bullet> The period for approving exploration plans should be 
            extended from 30 days to 60 days. This conclusion is 
            particularly important with respect to proposals to extend 
            outer continental shelf exploration and production 
            operations to the relatively unfamiliar conditions in the 
            Arctic and along the East Coast of the United States.
    <bullet> Whistleblowers involved in offshore drilling operations 
            should be provided the same protection that workers are 
            guaranteed in other comparable settings. Those oil 
            companies providing leadership in the pursuit of an 
            effective safety culture agree that any employee should 
            have the authority to stop operations if they see 
            conditions they think may be unsafe. Legally protecting 
            employees working for less committed companies could be an 
            important step in identifying problems before they become 
            serious.
    <bullet> The liability cap and financial responsibility 
            requirements for offshore facilities should be 
            substantially increased. Increasing the liability cap, set 
            by law as only $75 million, is important for two reasons. 
            First, it would increase the incentive to make sure that 
            the operations are conducted safely. The incredibly low 
            existing cap eliminates such incentives for companies that 
            would take advantage of it. The Nation was very fortunate 
            that BP did not try to take advantage of this limitation 
            with Deepwater Horizon. The second concern is that people 
            damaged by a spill would not be adequately compensated for 
            damages they experienced if a company took advantage of the 
            cap.
    <bullet> The existing limit of $1 billion on per-incident payouts 
            from the Oil Spill Liability Trust Fund should be 
            increased. The potential costs of responding to spills have 
            increased substantially since these limits were 
            established. It would be extremely unfortunate if the 
            government were unable to respond effectively to a spill 
            because of an arbitrarily low limit on how much money can 
            be provided by the trust fund.
    <bullet> A mechanism should be established to ensure that the 
            offshore energy industry pays the entire costs associated 
            with its regulatory oversight, just like other regulated 
            industries do. This includes the costs of agencies such as 
            BSEE and BOEM primarily charged with overseeing the 
            offshore energy operations--ensuring their safety and 
            compliance with environmental protection requirements--and 
            also the incremental costs of other agencies responsible 
            for overseeing offshore operations. We recognize that 
            Congress has agreed to budget increases for these agencies 
            to help support improved regulatory programs, but it would 
            benefit both the Federal budget and these oversight 
            programs if they were funded by user fees rather than taxes

    We have several other recommendations for congressional action as 
well. These are outlined in the attachment to my testimony and 
discussed in the Commission's report discussing its recommendations.
                            iii. conclusion
    In the years between the Exxon Valdez spill and the spring of 2010, 
Congress, like much of the Nation, appeared to have developed a false 
sense of security about the risks of offshore oil and gas development. 
Congress showed its support for offshore drilling in a number of ways, 
but did not take any steps to mitigate the increased perils that 
accompany drilling in ever-deeper water or in new frontiers areas such 
as icy Arctic seas. However, despite the lessons learned since the 
Deepwater Horizon exploded, 11 rig workers lost their lives, and 
millions of barrels of oil spilled into the Gulf of Mexico, Congress 
still has not enacted any legislation to improve the safety of offshore 
oil exploration and production.
    I recognize that the topic of today's hearing concerns seismic 
exploration and the future of the Atlantic OCS, but believe that the 
Commission's recommendations for needed legislative action are very 
germane. Given what has occurred, it first just makes sense to improve 
and codify the safety regime before moving forward into frontier areas. 
I have outlined some of the more important of these needs related to 
the safety of offshore energy development in my testimony.
    Second, the Commission recommended that frontier areas should be 
carefully studied to determine their environmental sensitivity, guide 
responsible planning within the region, and define a baseline against 
which damages caused by offshore energy development can be accurately 
assessed. One of the Commission's surprising findings was that when the 
Macondo blowout dumped enormous volumes of oil into the Gulf waters, 
scientists and policymakers suddenly realized they knew relatively 
little about biological systems, environmental conditions, and even key 
aquatic and coastal species in the area affected. Leasing of vast 
acreage combined with weak policies and limited funding had resulted in 
inadequate studies of critical environmental processes and sensitive 
environmental features where greater caution should be exercised. The 
Macondo blowout also taught us that large oil spills do not recognize 
State boundaries as shores over five States were oiled. As a resident 
of Maryland I feel compelled to remind Virginia proponents of offshore 
development that Ocean City is as close to areas targeted for 
exploration as Virginia Beach. Surely, risks to tourist economies in 
Maryland, Delaware and New Jersey, as well as Virginia, have also to be 
taken into account.
    Third, it is also critical that the resources needed to respond 
effectively to spills that may occur be located in the region where the 
expansion is proposed before the new areas are explored and developed. 
This includes both the equipment and supplies necessary to respond to 
any emergencies, and adequate training of the Federal, State, and local 
employees and volunteers who would be involved in such a response.
    Offshore drilling has a substantial potential to contribute to the 
Nation's oil and gas supplies and energy security. For this potential 
to be fully realized, however, the industry and government will have to 
rebuild public faith in offshore energy exploration and production. The 
Commission proposed a series of recommendations that would assist in 
this effort. Our message is clear: both government and industry must 
make dramatic changes to establish the high level of safety in drilling 
operations on the outer continental shelf that the American public has 
the right to expect and to demand. My fellow Commissioners and I 
continue to encourage Congress, the executive branch, and the oil and 
gas industry to take the necessary steps.

                                 ______
                                 

                 Recommendations Pertaining to Congress
A. Safety and Environmental Protection
    Congress and the Department of the Interior should create an 
independent agency within the Department with enforcement authority to 
oversee all aspects of offshore drilling safety, as well as the 
structural and operational integrity of all offshore energy production 
facilities, including both oil and gas production and renewable energy 
production. The director of the new agency should be appointed by the 
President for a 5- to 6-year term and be confirmed by the Senate.
    Congress and the Department of the Interior should create a Leasing 
and Environmental Science Office within the Department charged with 
fostering environmentally responsible and efficient development of the 
Outer Continental Shelf. To ensure that environmental concerns receive 
full consideration, the environmental division of this office should be 
led by a Chief Scientist, who would conduct all environmental reviews 
for offshore energy development.
    Congress should amend the Outer Continental Shelf Lands Act (OCSLA) 
to extend the 30-day deadline for approving exploration plans to 60 
days.
    Congress should amend OCSLA to provide the National Oceanic and 
Atmospheric Administration (NOAA) with a formal consultative role 
during the development of 5-year lease-plans and lease-sales.
    Congress should amend the Outer Continental Shelf Lands Act or 
specific safety statutes to provide the same whistleblower protection 
that workers are guaranteed in other comparable settings.
Spill Response and Containment
    Congress should provide mandatory funding (not subject to the 
annual appropriations process) for oil spill research and development.
    Congress and the Administration should encourage private investment 
in response technology more broadly, including through public-private 
partnerships and a tax credit for research and development in this 
area.
Impacts and Restoration
    Congress, Federal agencies, and ``responsible parties'' should take 
steps to restore consumer confidence in the aftermath of a ``Spill of 
National Significance.''

    [Congress should dedicate 80 percent of the Clean Water Act 
penalties to long-term restoration of the Gulf of Mexico.--Done]

    [To coordinate Gulf restoration and administer restoration funds, 
Congress should establish a joint State-Federal Gulf Coast Ecosystem 
Restoration Council. The Council should be given authority to set 
priorities to govern the expenditure of funds and resolve any conflicts 
regarding eligibility of projects.--Done]

    Congress should ensure that the priorities and decisions of the 
Council are informed by input from a Citizens Advisory Council, which 
represents diverse stakeholders.

    [In addition, Congress should establish and fund a Gulf Coast 
Restoration Science and Technology Program to support the design of 
scientifically sound restoration projects and evaluate individual 
projects for technical feasibility and consistency with the region-wide 
strategy.--Done]

Ensuring Adequate Resources
    Congress should significantly increase the liability cap and 
financial responsibility requirements for offshore facilities.
    Congress should increase the limit on per-incident payouts from the 
Oil Spill Liability Trust Fund.
    The offshore energy industry should pay the costs associated with 
its regulatory oversight, just like other regulated industries do. This 
includes the costs of agencies such as BOEMRE primarily charged with 
overseeing the offshore energy operations--ensuring their safety and 
compliance with environmental protection requirements--and also the 
incremental costs of other agencies responsible for overseeing offshore 
operations.
    Congress should increase and maintain its awareness of the risks of 
offshore drilling by:

    <bullet> designating specific subcommittees to oversee offshore 
            safety and environmental risks,
    <bullet> requiring the Department of the Interior and its Inspector 
            General to submit annual reports to Congress on the 
            subject, and
    <bullet> requiring appropriate congressional committees to hold 
            annual oversight hearings on the state of technology and 
            safety.
                       frontier areas--the arctic
    There should be an immediate, comprehensive Federal research effort 
to provide a foundation of scientific information on the Arctic.
    Congress should provide resources to establish Coast Guard response 
capabilities in the Arctic, based on the Coast Guard's review of 
current and projected gaps in capacity.

                                 ______
                                 

    The Chairman. OK. Thank you, all of you, for your 
testimony. We will now begin our questions. If we do have votes 
called in the middle of questioning, we will have to take a 
recess and come back. I would ask your indulgence if that is 
the case. Members are limited to 5 minutes for their questions 
but we may have additional rounds. I now recognize myself for 5 
minutes.
    Mr. Barnes, if I can talk to you first very quickly, Canada 
has been permitting seismic activity surveying in the Atlantic 
Ocean for some time now, and has interacted with many of the 
same species that our agencies have studied in the U.S. 
Atlantic waters. Is it your opinion that Canada is able to 
balance the protection of marine mammals as well as the 
advancement of seismic science and resource knowledge?
    Mr. Barnes. Yes, it is. It is my opinion that that is the 
case. We have had seismic activity taking place off of Atlantic 
Canada as I mentioned since 1964. We do have mitigation 
measures in place as we undertake that activity to prevent any 
kind of interaction with certain marine mammals.
    The Chairman. OK, thank you. I appreciate that. 
Additionally, Dr. Miller and Dr. Knapp, given the existing safe 
record of seismic exploration already conducted amongst 
protected species in the Gulf of Mexico, can we do the same 
kind of safe exploration in the Atlantic? A brief answer, 
please.
    Mr. Miller. Thank you for making me a doctor, by the way. 
Yes, we can. The mitigation factors that our industry uses are 
the same that we use in Canada. It is transparent between both 
areas.
    The Chairman. Thank you.
    Dr. Knapp. Mr. Chairman, I see no reason why we couldn't 
conduct those surveys in a safe and effective manner.
    The Chairman. Thank you both. Deputy Director Cruickshank, 
first as an aside, I would like to ask if you believe that 
offshore oil and gas operations on our Nation's Outer 
Continental Shelf under your oversight in the Bureau of Ocean 
Energy Management as well as the Bureau of Safety and 
Environmental Enforcement of our Nation's offshore energy 
production are among some of the safest, if not the safest in 
the world? Do you believe that to be the case?
    Mr. Cruickshank. I believe we have made a lot of reforms 
and changes in the last few years that have greatly improved 
the safety of operations on the Outer Continental Shelf, but we 
have not and cannot eliminate all risks.
    The Chairman. OK. I appreciate hearing that, given the 
doubts that are sometimes cast upon your agency and the 
Administration when it comes to protecting our offshores.
    Continuing on, Deputy Director, the Department first 
published the Notice of Intent to prepare a programmatic 
environmental impact statement for the Atlantic on January 21, 
2009. After seeing little progress, the 2010 Interior 
appropriations bill included language requiring the Department 
to move forward and to provide Congress with a detailed 
timeline, which it did several months later in February of 
2010. The timeline said the record of decision would be issued 
on April 13, 2012, almost 2 years ago. The most recent timeline 
estimated that it would be issued last week, which we know did 
not happen. You have stated today that you expect to publish 
the final PEIS by the end of this February.
    Now, you have made reference to the 16-day government 
shutdown in October, even though we have had 5 years to do 
this. Can you tell us why we have had these delays and is this 
really a hard deadline that you are going to be able to meet at 
the end of February?
    Mr. Cruickshank. This has been a very complicated and 
challenging programmatic EIS, and as reflected by the number of 
substantive comments that we received, the additional 
information, new science that was coming forth over this time 
period as well as the danger to species consultation with the 
National Marine and Fisheries Service, and all of these things 
had to be taken into account as we put together the EIS, and 
they all contributed to the length of time. I think we all wish 
we would have been able to have been more timely in moving it 
forward, but we are on track to publish the EIS by the end of 
February.
    The Chairman. And, Deputy Director, you have heard comments 
about the Canadian experience with, I believe it is the 
Northern right whale. Do you have any indication that behavior 
of this animal is different south of the Canadian border in 
U.S. Atlantic waters?
    Mr. Cruickshank. I don't have any reason to believe it 
would necessarily be different. They may be doing different 
things at different times of the year in different places, but 
they are the same whales.
    The Chairman. OK. And does it sound like the kind of 
environmental protections that are done in Canada would be 
appropriate and adequate for protecting U.S. waters, marine 
mammals found in U.S. waters?
    Mr. Cruickshank. We have similar practices in place and we 
are also looking at other potential mitigation measures as part 
of the EIS, to put the best set of mitigation measures we can 
in place to try and avoid and minimize environmental impact.
    The Chairman. OK. Thank you. I now recognize the Ranking 
Member for 5 minutes.
    Dr. Holt. Thank you. Thanks for your testimony, all of you.
    Dr. Boesch, in last year's report card you gave Congress a 
D-plus for the action on the Commission's recommendations. Has 
that changed?
    Mr. Boesch. No, it really hasn't. We upgraded it because of 
the RESTORE Act, but the safety provisions that we recommended 
that Congress act on have still not been acted on.
    Dr. Holt. Do you see things that Congress could do to 
promote the use of best available and safest technology for OCS 
drilling?
    Mr. Boesch. Yes, I do. The concept that you have embraced 
and picked up from the National Academy of Engineering is 
certainly one thing. This needs to be done, I think, in 
conjunction with the government and industry, because industry 
has a lot of investments in the development of technology and, 
of course, has to apply it.
    Dr. Holt. Thanks. Mr. Cruickshank, in 2011, Secretary 
Salazar testified before the Senate comparable committee and 
called on Congress to pass legislative proposals to implement 
offshore safety and so forth. Does the Department still support 
increasing penalties for safety and environmental violations 
and getting more flexibility to hire necessary staff? Those 
were two of the recommendations.
    Mr. Cruickshank. With respect to the flexibility to hire 
staff, we were given some additional flexibility in the 
appropriations bills for petroleum engineers and geoscientists, 
which we were grateful for and have put to good use. Civil 
penalties is really a question for the Bureau of Safety and 
Environmental Enforcement. I know they are taking a look at the 
civil penalties program and do consider that to be an important 
part of their toolbox for being able to enforce safe practices 
on the OCS.
    Dr. Holt. Thank you. Mr. Cruickshank, one offshore bill 
that the Republicans moved this year was the Offshore Energy 
and Jobs Act. It does pay attention to a couple of the 
Commission's recommendations, but it appears to take some steps 
backwards also. Does the Administration have a position on 
whether this bill would help or hurt the safety and 
environmental protection in offshore drilling?
    Mr. Cruickshank. The Administration was opposed to that 
bill. One of the main reasons for the opposition was that it 
really took away the Secretary's discretion to consider the 
balancing factors in the OCS Lands Act to determine where 
offshore leasing should occur.
    Dr. Holt. In fact, in the Administration statement of 
policy, the phrase is ``strongly opposes'' because there is 
inadequate consideration of a number of things in this 
legislation, and it promotes drilling, not without regard to, 
actually in opposition to, safety and environmental protection.
    Mr. Boesch, would you, as a Commission member, go so far as 
to say that it is more important that we implement the 
recommendations congressionally from the Commission than it is 
to open up new territories right now?
    Mr. Boesch. I think our view is that since we have made 
these recommendations, they are sensible recommendations, they 
are really a predicate before we make these other decisions to 
move into other areas. The American public, I think, should 
expect that we have systems in place in the long run, not just 
by administrative action in one Administration.
    Dr. Holt. That is a pretty strong statement, of course, but 
I think it is consistent with your findings that there were 
some pretty strong shortcomings, pretty great shortcomings in 
the culture and in the practice and in the details of the 
regulations and implementations that called for such things.
    Mr. Boesch. That is correct. But there have been, as I 
pointed out, and I think you did as well, there have been some 
considerable improvements in government oversight, in industry 
self-regulation and moving toward better standards. What is 
lacking, of course, is the law, is the legal part to put these 
things into place so we can reduce the risks that we have 
similar incidents.
    Dr. Holt. Just a quick question that we can't explore 
fully. Mr. Knapp, Mr. Barnes, you seem to put an emphasis on 
fatality in species that would result from the sonic booms in 
the ocean. Is fatality really the proper measure? Are there 
other marine biologists who use other measures of the effect of 
these seismic testings?
    Dr. Knapp. I will go first.
    Dr. Holt. We can't go through those.
    Dr. Knapp. I will try to keep it brief. Thank you for the 
question, Ranking Member Holt. First and foremost, I am an 
earth scientist and not a marine biologist, so I can't claim to 
be an authority on that. But the number of studies that I am 
aware of in the published scientific literature refer to 
behavioral changes that may result, and avoidance measures that 
marine mammals may take, from seismic boats. But I am not aware 
of any documented case of actual damage to marine mammals as a 
result of seismic work.
    Dr. Holt. Well, my time has expired. I am sorry, Mr. 
Barnes. If you can submit something later on this subject, I 
would be interested. Thank you.
    The Chairman. OK. We will now have one more question and 
then we will take a recess. Fortunately, even though the votes 
have been called, it is only a single vote so we don't have to 
go over there and linger. We can just head right back. So it 
will be a short recess.
    We will now hear from Representative Wittman, and after 
that we will have a recess.
    Dr. Wittman. Thank you, Mr. Chairman, and thanks again for 
your leadership in holding this hearing. I want to thank our 
witnesses for joining us today.
    As you know, Virginia has great potential to be a leader in 
offshore oil and gas production on the East Coast. However, we 
want to make sure that we understand the full picture as we go 
into seismic studies, and we understand seismic studies are 
critically important to getting that information.
    For Virginia, it has been a bipartisan effort. Both of our 
Senators, Senator Kaine and Senator Warner, are strongly in 
favor of this, as well as our new Governor, Governor-elect 
McAuliffe, they feel very strongly about energy production 
there on the Atlantic Coast, and I along with all of our 
members of the Virginia delegation were disappointed that 
Virginia was not included in the 2012-2017 Outer Continental 
Shelf oil and gas leasing program.
    We are also disappointed that it has taken 5 years for 
circular arguments to take place and for there not to be any 
forward progress on the final environmental impact statement to 
move things forward. There has been a lot of talk about let's 
explore, but talk is cheap, action is needed, and it is 
critically important that we get that done. A recent study 
highlights the importance to Virginia as well as other States 
on the East Coast by indicating that about 25,000 jobs would be 
created in Virginia and billions in economic activities for 
opening up the Atlantic OCS.
    I want to begin questioning by going to Mr. Cruickshank and 
asking your perspective on, first of all, why it has taken so 
long for the EIS to be done and when will you make the final 
decision?
    Mr. Cruickshank. The EIS has taken longer than we had 
originally anticipated because of the complexity of the issues 
involved with seismic in the Atlantic. There has been a lot of 
new science developed, a lot of constructive comments that we 
received over the years, and the consultation for endangered 
species as well all added to the time it took to complete, but 
we are on schedule to publish the final EIS by the end of 
February.
    Dr. Wittman. By the end of February, very good. I want to 
point recently to Secretary Jewell's comments where she stated 
before the Senate Energy and Natural Resources Committee that 
the collection of new seismic data would not be a prerequisite 
for developing the next 5-year plan.
    And Dr. Cruickshank, I wanted to get your specific comment 
on whether the next 5-year plan would in any way, shape or form 
be affected by the seismic studies that are currently going on 
and the environmental impact statement.
    Mr. Cruickshank. What the Secretary was saying I agree 
with, is that we can consider whether or not to include the 
Mid- and South Atlantic in the next 5-year program without 
those seismic surveys having been completed. I think the data 
that those surveys would generate would be particularly 
important when we are planning for the individual resales under 
the 5-year program if those planning areas are included.
    Dr. Wittman. OK, very good.
    Thank you, Dr. Cruickshank.
    Mr. Miller, I want to ask you specifically about the 
methodology involving seismic surveys. We know a lot of 
technology has improved through the years. The last seismic 
survey in the Atlantic was done over 30 years ago. Can you tell 
us a little bit about how the technology has improved and what 
you would expect seismic surveys today to discover more 
abundant resources off of Virginia. And how would those 
technologies help us understand the resource but also if you 
could explain some of the mitigation measures used by your 
company when conducting these surveys? And do you believe that 
those mitigation efforts are effective in protecting marine 
mammals from the potential impact of seismic operations and any 
other of our natural resources or fisheries or fish populations 
there in those coastal waters?
    Mr. Miller. Yes, sir, I will start with the mitigation 
measures, and as an industry, the IGC has worldwide guidelines 
that all of our members follow. Part of those mitigation 
methods is we employ what we call marine mammal observers on 
vessels that are monitoring, and if they do see a marine mammal 
come into the exclusion zone, which those are set by BOEM, and 
it is different in different areas, then we shut the operation 
down. We also include a passive monitor at night, acoustic 
monitor to listen, but all those are done, are common practice 
worldwide on our vessels now.
    In regards to the operations, since the 1980s, the seismic 
industry has come a long way, just like all technology has, and 
what we would really see an improvement on is we would tow a 
longer streamer, which is collect deeper data to help 
understand the deep structures and the architecture of the 
Atlantic basin, which we are unable to see right now, and that 
is the activity that we are seeing in West Africa and South 
America, and in the Atlantic margin is where they are having 
massive discoveries in those deeper sections, so we would 
expect, just like in the Gulf of Mexico, as the 3D came in, the 
reserve base increased five times just on technology, on the 
seismic technology. We would expect the same thing just with 
this new technology off the East Coast.
    Dr. Wittman. Thank you, Mr. Chairman.
    I yield back.
    The Chairman. OK, thank you, and we are going to take a 
short recess of approximately 15 to 20 minutes. The committee 
will be in recess.
    [Recess.]
    The Chairman. The subcommittee will come back to order. OK. 
The committee will come back to order. We will conclude our 
hearing. I appreciate everyone's indulgence as we took a brief 
recess. We will now resume members' questioning and will go to 
the distinguished Member from Massachusetts, Representative 
Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    As everyone is well aware and as Ranking Member Holt 
referenced, tomorrow is the third year anniversary of the 
report issued by the National Commission on the BP Deepwater 
Horizon Oil Spill. And as we have also heard today several 
times, Congress has received an abysmal D-plus on their 
response to the disaster from the former commissioners, as we 
have yet to enact many of the recommended legislative reforms 
to improve the safety of offshore drilling.
    It is unfortunate, and that is to say it mildly, that my 
colleagues across the aisle have chosen to ignore the bulk of 
lessons learned from that appalling spill, and much of the push 
to explore the Atlantic Coast offshore region ignores the fact 
that domestic oil production is at a 20-year high, and natural 
gas production is at an all-time high in the United States.
    We should be making sure that the current oil production 
boom occurs in a manner that protects its workers, coastal 
communities, and the environment. We cannot discuss expanding 
offshore drilling in the Atlantic without first passing 
meaningful legislation to enhance drilling safety. I am proud 
to be a cosponsor of Ranking Member DeFazio and Subcommittee 
Ranking Member Holt's legislation, the Offshore Energy Safety 
and Technology Improvements Act, which Mr. Holt outlined in his 
opening remarks.
    A recent report from the American Petroleum Institute 
claims to lay out the economic benefits of opening up the 
entire Atlantic Outer Continental Shelf to oil and natural gas 
development. However, this report ignores the potential impact, 
economic impacts on tourism and fishing industries in the event 
of a spill.
    Mr. Boesch, from your experiences in the Gulf and as a 
member of the Commission, how extensive was the economic impact 
on the local fishing and tourism industries following the BP 
Deepwater Horizon disaster?
    Dr. Boesch. Well, thank you. The impact was indeed 
extensive because it basically shut down both industries for 
some months during that year. Fishing has resumed, and there is 
at this point no indication that there are truly major long-
lasting impacts, but people literally lost their livelihoods 
for a full year; similarly, with the tourist industry. And in 
both cases, there is a longer-term impact in terms of the 
brand. People associate the Gulf of Mexico and going there for 
a vacation or eating Gulf seafood with that oil spill, so those 
industries are very concerned about the long-term impact in 
terms of their attractiveness to tourists or people who consume 
seafood.
    Ms. Tsongas. Well, I appreciate that, because from the 
information we have, at the peak of the closure, over 88,000 
square miles or nearly 30 percent, 37 percent of all Federal 
waters in the Gulf of Mexico were off limits to fishing. The 
National Academy of Science estimates that fishery closures 
decreased commercial production by 20 percent, which created, 
obviously, an immediate economic hardship for fishermen and 
also triggered, as you just mentioned, public concerns 
regarding the safety of Gulf seafood. It hurt the brand, which 
is much more difficult to quantify.
    As you know, my home State of Massachusetts is also home to 
historic fishing and tourism industries, and like many of the 
Gulf States, the health of our oceans is directly tied to the 
economic health of our communities. While the hearing today is 
not focused on New England and the North Atlantic, our region 
is still highly relevant to today's discussion as it could well 
be a precursor to future efforts to drill off New England 
shores.
    And just as a statement for the record, in Massachusetts, 
we depend on the ocean and coastal areas for shipping, 
commercial fishing, and tourism. In fact, Massachusetts is home 
to the most profitable port in the Nation in New Bedford, 
Massachusetts, which brings in over $400 million a year in 
commercial fishery landings. That would be a significant impact 
were there to be a spill that prevented that from taking place, 
and the New England region as a whole brings in over $1.1 
billion in commercial landings annually and has a ripple effect 
on our entire region.
    So we know the ocean is not a static ecosystem. What 
happens impacts many, and for the record, I thank you for your 
testimony today because it demonstrates that it is highly 
irresponsible for us to consider expanding offshore drilling 
and putting these important industries in jeopardy without 
first taking any action to improve overall drilling safety.
    Thank you, and I yield back.
    The Chairman. Thank you.
    I would like to remind everyone, including our witnesses, 
that the subject of this hearing is seismic exploration off the 
Mid- and South Atlantic.
    OK, we will now resume questioning, and I would like to 
recognize Representative Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman, and I second Rob 
Wittman from Virginia's comments, this is very timely, and it 
is something that the State of South Carolina is very 
interested in as well, including our offshore areas in a 
potential lease sale and developing the resources that we may 
have off our coasts and benefiting from the jobs that will be 
created and the revenue sharing back to the State.
    Mr. Cruickshank, just real quick, you don't have to answer 
this question, but I wish your office could provide to my 
office, because you are doing the environmental impact 
statement, a single instance where a marine mammal's death was 
attributed to seismic. I have researched on the Internet, we 
have looked in other sources, and I can't find a single 
instance. So if you have that information, I certainly would 
appreciate it because we can't find a single instance where a 
marine mammal was killed based on seismic work.
    Mr. Miller, 300 million years ago, the tectonic plates and 
the continents were all together in an area call Pangaea, and 
those continents separated. Would you say that the geological 
features along the Atlantic Coast are very similar to those you 
would find in North Africa and West Africa because that area 
was connected to the eastern Continental United States 300 
million years ago?
    Mr. Miller. Yes, sir, that is a play that is undertaking 
right now within industry, the conjugate margin between Angola, 
which has huge oil reserves, and Brazil, and they are looking 
at the same thing with the conjugate between Morocco, 
Mauritania up into the eastern----
    Mr. Duncan. And there are oil and natural gas resources in 
that part of the world?
    Mr. Miller. That is correct, and there is a lot of activity 
and a lot of money being spent in those two countries right 
now.
    Mr. Duncan. Just one other question. In 1987, I think MMS 
estimated in the Gulf of Mexico that there were about 9.57 
billion barrels of oil. What did recent seismic and actual data 
from wells in the field show?
    Mr. Miller. Off the East Coast or in Africa?
    Mr. Duncan. Well, no, just in the Gulf of Mexico.
    Mr. Miller. In the Gulf of Mexico----
    Mr. Duncan. Just comparing the 1987 MMS estimate of 9.57 
and what we are finding out there now.
    Mr. Miller. Yeah, I am sorry. The Gulf of Mexico, the 
technology that was developed there with the 3D seismic and 
then onwards from other types of improvements on 3D seismic, it 
was a fivefold increase in reserves, based on that technology, 
before they put the drill bit in the ground. Since then, it has 
increased another three. In the last 15 years, it has tripled.
    Mr. Duncan. So the estimate was about 10 billion barrels, 
and fivefold of that would be almost 50 billion barrels. That 
is a big difference from what MMS expected to find based on old 
seismic data and what actually we are finding now in new 
seismic and well data, correct?
    Mr. Miller. That is very correct.
    Mr. Duncan. OK, so let's fast forward or let's move over to 
the Atlantic Coast. Thirty years ago, we had seismic work done 
that estimated fairly significant reserves that are 
harvestable, but wouldn't you agree with me that if we use new 
3D and 4D technology, new updated 21st century seismic 
technology, that we may expect to find significant differences 
between 30-year-old technology and today?
    Mr. Miller. Yes, the industry is expecting to see that 
improvement and increase with the new seismic.
    Mr. Duncan. Well, thank you for that.
    Professor Knapp, thanks for being here. Your valuable 
testimony and your experience brings a wealth of information to 
this committee. What geological potential do you see for the 
Atlantic in terms of oil and natural gas?
    Dr. Knapp. Thank you for the question, Congressman Duncan. 
Our group, as I alluded to in my statement, has been revisiting 
the tectonic and geologic evolution of the Atlantic margin, and 
we have come up I think with some surprising new details that 
play into both the evolution of the deposition of sediments, 
the organic richness of those sediments, as well as the 
presence or absence of a large volcanic province that would 
affect the thermal maturity of the Atlantic margin. So there is 
a lot of new information I think that would need to be fed into 
revised seismic interpretations to really come up with a new 
and revised estimate of the resource potential.
    Mr. Duncan. Well, let me ask you this, what do you think 
the impact would be on institutions of higher education, such 
as the University of South Carolina, from ramping up offshore 
seismic exploration in future production? What do you think 
that would, what kind of impact would that have on an 
institution of higher ed?
    Dr. Knapp. I think it could have a very important effect. I 
think there could be a very strong partnership actually between 
institutions of higher education and training a workforce for 
the 21st century that is focused on the energy industries, 
especially if there is the potential for developing those 
resources there geographically.
    Mr. Duncan. Real quickly, because my time is up, but you 
mentioned in your research, in your statement, that there was 
some onshore seismic well data that has been calling into 
question more than 30 years of research on the Atlantic 
continental margin, suggesting that many previous 
interpretations of the geologic evolution were in error. Can 
you explain that? What do you mean by that?
    Dr. Knapp. Real briefly, that is not uncommon in science, 
that is the way science works, that we are constantly testing 
our hypotheses and coming up with new interpretations, but in 
this case, it is what I just alluded to, those features about 
whether there was a large volcanic province that developed on 
the margin that would have blanketed the entire area before the 
Atlantic opened, we have demonstrated now that that didn't 
exist or if it did, it is no longer there. So there are things 
like that that are fundamental to our understanding of the 
tectonic evolution of passive margins where these deposits 
accumulate that have never been put into the resource 
estimates, so those are the kinds----
    Mr. Duncan. Thanks so much. I appreciate it.
    I yield back.
    The Chairman. OK.
    Now I would like to recognize Representative Pallone for 5 
minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    Thank you for letting me sit in on the committee.
    I wanted to ask some questions of Mr. Cruickshank. I hope I 
am pronouncing it right. First, I wanted to impress upon the 
Department once again that we on the Atlantic Coast can't 
afford the inevitable environmental and economic costs that 
offshore drilling has proven to inflict on Americans. As you 
know, I am totally opposed to any drilling off the coast of the 
Atlantic.
    In New Jersey, the tourism sector, which is anchored to our 
clean beaches and ocean, generated $34.7 billion in 2012 alone, 
and that is 7 percent of the entire State economy. Tourism 
sustained more than 5,000 jobs or 10 percent of total 
employment in New Jersey. And commercial fishing supports more 
than 43,000 jobs. And recreational fishing supports almost 
another 10,000. So my question is, what assurances can you 
offer me and my constituents that oil and gas exploration in 
the Atlantic will not put these jobs and my State's economy at 
risk?
    Mr. Cruickshank. Congressman, thank you for the question. 
We have not made any decisions at this point whether or not to 
allow oil and gas exploration development in the Atlantic. What 
we are doing in this programmatic EIS is looking at the 
seismic, and that sort of information will help us make 
decisions in the future about whether to offer areas in the 
Atlantic. I can say there are no guarantees that there cannot 
be incidents in the future, but the Department has been very 
aggressive in recent years in trying to make reforms and 
regulatory changes to improve the safety of offshore 
operations. And if we didn't believe that we could operate in a 
safe manner, then we would not be pursuing the sorts of things 
that we are in the leasing program.
    Mr. Pallone. Well, on December 26, NOAA released draft 
acoustic guidelines for assessing the effects of sound on 
marine mammals, obviously important when considering the 
impacts of seismic air gun testing. In July, when Secretary 
Jewell testified before the full Natural Resources Committee, I 
asked that she commit to waiting until these guidelines are 
published and finalized before issuing a final PEIS on this 
matter. And she said that she would consider my request after 
reviewing it with staff. Can you tell me whether the Department 
will wait until the guidelines have been finalized and fully 
considered before issuing the final PEIS?
    Mr. Cruickshank. At this point, only part of the guidelines 
have been put out for the draft for public comments, and to my 
knowledge, at this point, there is no schedule for when the 
remaining parts will be put out for public comment or when any 
of those criteria will be finalized, so we are proceeding with 
publishing the final PEIS, but I want to make the point that 
this PEIS itself does not authorize any seismic activity, that 
each application will be subject to a site-specific 
environmental review and to authorizations under the Marine 
Mammal Protection Act that we will be able to consider any new 
information including the criteria as they come out.
    Mr. Pallone. Well, would waiting for Congress to adopt the 
recommendations of the Deepwater Horizon Oil Spill Commission 
before moving forward with any offshore oil and gas exploration 
be prudent and make it less likely that a spill would cause 
catastrophic damage? As you know, I have been pushing for those 
recommendations to be adopted. We are not getting much help--
well, any help really--from the Republicans in the majority to 
accomplish that. So would it make sense to simply wait to adopt 
those Commission recommendations before we move forward?
    Mr. Cruickshank. We have been implementing as many of the 
recommendations administratively as we are able to, but 
certainly that suite of recommendations and where we are in 
implementing them and what the residual risks are, are all 
factors that the Secretary will consider in deciding in the 
future whether or not to allow leasing activity offshore in the 
Atlantic.
    Mr. Pallone. Let me, because I have less than a minute. Dr. 
Boesch, one of the findings of that Deepwater Horizon Oil Spill 
Commission was that there needs to be better science and 
greater interagency consultation to improve decisionmaking 
related to management of offshore resources, and the Commission 
recommended that Congress give NOAA a formal consultative role 
during Interior's development of offshore drilling plans. Could 
you just tell us why the Commission made its recommendation, 
how you believe giving NOAA more of a formal role in statute 
would help lead to better decisionmaking?
    Dr. Boesch. Yes sir. Simply because it is the Federal 
agency which has responsibility for other important resources 
along our coasts, and so as we make these decisions in which we 
weigh the risks and benefits with respect to energy resources, 
renewable energy resources, living resources, we have to think 
about making sure that our government is working together 
effectively to help make those prudent decisions.
    Mr. Pallone. All right, thank you.
    Thank you, Mr. Chairman, for letting me participate.
    The Chairman. Thank you.
    I would like to now recognize Representative Flores.
    Mr. Flores. Thank you, Mr. Chairman.
    I would like to thank the panel for attending today. We 
have two subjects that I would like to talk about. One is 
somehow offshore drilling safety wound its way into a 
discussion about seismic activity. Just to make sure we 
understand the nexus between the discussion we are talking 
about today and some of the red herring comments that have been 
thrown out regarding offshore drilling safety, I think it is 
important to try to build how that relationship works.
    So, Mr. Cruickshank, let's start with you. So let's assume 
the PEIS is issued in February. What is the earliest that 
drilling would occur in any, either of these two areas, Mid-
Atlantic or South Atlantic, if we have a lease sale and if we 
approve drilling permits? What is the very earliest that that 
would happen?
    Mr. Cruickshank. Well, the first thing that would have to 
happen is that the Secretary would have to decide to include 
those areas in----
    Mr. Flores. Just assuming they did, right.
    Mr. Cruickshank. From 2017 to 2022, for a frontier area 
where we would need to do----
    Mr. Flores. Just a short answer, just what is the earliest, 
I mean, how many years?
    Mr. Cruickshank. It would probably be toward the latter 
half of the next 5-year program.
    Mr. Flores. Right. So, I mean, we are talking 4 years at 
the earliest, 5 years, something like that?
    Mr. Cruickshank. Yes.
    Mr. Flores. So we have got substantial time to address the 
issues related to offshore drilling that have been raised 
today. The next question also for Mr. Cruickshank is this: One 
is, your agency has made policy changes with respect to 
offshore drilling safety, has it not, you and BSEE? I am 
including you collaboratively with BSEE.
    Mr. Cruickshank. That is correct.
    Mr. Flores. OK. And has the industry made any improvements 
in offshore drilling safety?
    Mr. Cruickshank. Yes, the industry has upgraded a lot of 
its practices as well.
    Mr. Flores. OK. So, I mean, the bottom line here is safety 
improvements have not stopped, irrespective of what Congress 
has done regarding the Commission's report. Is that correct?
    Mr. Cruickshank. That is correct.
    Mr. Flores. OK. Just by way of comparison, Mr. Barnes, what 
is the earliest, I mean, your regulatory system is a lot 
different, in many ways, it is much more efficient than what 
ours is. What is the earliest, if seismic activity was approved 
in a particular area today, what is the earliest that drilling 
would occur offshore of Nova Scotia and Canada?
    Mr. Barnes. Usually, if seismic is approved and seismic is 
acquired, there is usually about 2 years between when the 
seismic program is finished and when a company decides to 
undertake a drilling program.
    Mr. Flores. Right. And so drilling would----
    Mr. Barnes. That is an industry decision, as opposed to a 
government decision.
    Mr. Flores. Right. So drilling would be later on, then, as 
well?
    Mr. Barnes. That is correct.
    Mr. Flores. So, anyway, I think we can sort of dispense 
with the hysteria about seismic today means that we are going 
to have an accident tomorrow. I mean, there is plenty of time 
for the Congress to look at the recommendations, and now let's 
get on to the subject that is really important here.
    Mr. Cruickshank, I would like to go back to you. We are 
hoping to get this PEIS in February. What will the next steps 
be before the next 5-year plan begins in 2017?
    Mr. Cruickshank. Are you referring to the next steps 
regarding seismic activity?
    Mr. Flores. Well, in order to get to where we can have a 5-
year lease sale plan, what would happen? The next 5-year plan 
is due in 2017, as I understand it, so what steps do you have 
to make between the PEIS and the next lease sale?
    Mr. Cruickshank. This programmatic EIS does not feed 
particularly into the next 5-year program. The Outer 
Continental Shelf Lands Act has a very involved process for 
developing the 5-year program that we will be kicking off in 
the coming year.
    Mr. Flores. Right. This doesn't necessarily mean that we 
are going to have a lease sale in the next, in the Mid-Atlantic 
or South Atlantic area in the 2017 plan, right? That is where I 
am going with this.
    Mr. Cruickshank. That is correct. The decision has not been 
made yet.
    Mr. Flores. Mr. Miller, you talked about the robust 
environmental procedures the industry follows. Will you expand 
on how you work with other ocean interests to protect our 
economy, I mean the other parts of the economy such as fishing 
and shipping?
    Mr. Miller. The vessels that are working and will be 
working off the Atlantic have a professional group on board 
that communicates with the shipping industry and the fishing 
industry while we are out there. Besides the marine mammal 
observers that are on board, the vessels also employ what we 
call a chase vessel that is an escort vessel to help to 
communicate with the fishing business. Those are on all of our 
operations within our industry.
    Mr. Flores. OK, thank you.
    And Mr. Miller, a follow up to that. Has there been, in 
terms of risk to marine life, is there more risk from the other 
activities in the ocean, such as shipping and fishing or 
seismic? Which one has the greater risk profile to marine life?
    Mr. Miller. I am not an expert on that, but I know that 
within the last 40 years, we have not seen an event, a 
mortality event in the seismic business.
    Mr. Flores. Exactly.
    Mr. Miller. I would assume that the shipping business may 
be a little bit different.
    Mr. Flores. Mr. Barnes, what is your, what are your 
observations in that regard in terms of other economic 
activities in the ocean versus seismic activity. Which has had 
the bigger impact on marine life?
    Mr. Barnes. Oh, definitely other economic activities. The 
seismic industry has very little impact on marine life.
    Mr. Flores. OK. So I think we have proven today that 
seismic activity is an important precursor to any energy 
activity offshore. It doesn't mean it is necessarily going to 
happen. It is also safe, and it has nothing to do at this point 
with offshore drilling safety.
    So, Mr. Chairman, with that, thank you. I yield back.
    The Chairman. Thank you.
    Representative Benishek.
    Dr. Benishek. Thank you, Mr. Chairman.
    I would like to thank you all as well for being here and 
taking the time to sit before us to answer questions. I have a 
couple questions.
    The first one is to you, Mr. Cruickshank. I am sort of 
curious about the process of the environmental impact statement 
development. As I understand from your testimony earlier, the 
delay has come over new data being found, and you are trying to 
evaluate more and more information to include that all in the 
process. Is that correct?
    Mr. Cruickshank. Yes, we are supposed to include the best 
available science as we are preparing this document. As we 
become aware of new information, we need to evaluate it and 
consider that information.
    Dr. Benishek. Now, let me just ask you this: In my 
experience in developing procedures and regulations, I am a 
doctor, we have to do things on a timely basis, and we have to 
decide how to treat patients based on the best available 
knowledge and institute those practices, and so we have a 
timeline that we say we are going to try to get as much 
information as we can by this date, and then we are going to 
act on that data, you know, by studying it for a certain period 
of time, and then we are going to issue the regulations so that 
they come out in a timely fashion so that improvements can be 
made in a timely fashion. And I am somewhat concerned about 
your testimony, and it doesn't seem to me that there is a 
timeline. You know, it has been 5 years that they have been 
working on these regulations, well that hasn't improved 
anything in 5 years. Is there a timeline, or do you just keep 
adding on more information as time goes by? I mean, I want the 
best information, too, but a timely improvement in regulations 
is important as well. Can you comment on that scenario for me, 
please?
    Mr. Cruickshank. We try to be as efficient as we can in 
developing these documents, but there was a wealth of 
information that came in and needed to be evaluated. It is not 
that we are waiting for new information to come, but when the 
information is given to us, we do have to evaluate it.
    Dr. Benishek. Well, then you would just stop what you are 
doing and maybe change everything you have been working on for 
the last 2 years if information came in tomorrow that you 
thought might change it or somebody in your department might 
change it, you just might change everything you have done for 
the last 5 years and start over again. Is that right?
    Mr. Cruickshank. If there is some significant new 
information that we needed to pull into our analysis, we 
would----
    Dr. Benishek. Who decides that?
    Mr. Cruickshank. The scientists decide whether the 
information that is being provided is something that represents 
something that needs to be incorporated.
    Dr. Benishek. Not somebody at your level then? Is it 
somebody higher than you or lower than you?
    Mr. Cruickshank. It is our scientists, our marine 
biologists, our oceanographers.
    Dr. Benishek. Well, there is some concern on my part about 
that whole process, where there doesn't seem to be a timeline 
because making improvements on, like, a 5-year basis, you know, 
to continue to make progress doesn't happen if we delay 
improvement in the regulations based on last-minute 
information. You understand what I am saying, what I am trying 
to get to?
    Mr. Cruickshank. I do, and this EIS has taken longer than 
an EIS typically takes for us, but this was a particularly 
complicated and challenging EIS to complete.
    Dr. Benishek. Well, 5 years seems to be a long time to me 
to get something done.
    Mr. Barnes, the permitting process in Canada, is it 
different than what Mr. Cruickshank describes? I mean, do they 
try to take care of things as they come up time after time, or 
is there a timely basis involved?
    Mr. Barnes. The regulatory approval process is pretty 
similar to what is in the United States, but we have I think 
shorter approval times that are actually legislated in 
practice. I can't be sure if you have legislative approval 
times, but we do in Canada, such that when a company applies 
for a seismic application to do seismic, they get approval 
within, you know, a certain number of months.
    Dr. Benishek. Well, anyway, the point I was trying to get 
to, Mr. Cruickshank, is that I am very suspicious of 
bureaucracies that don't do their jobs, and getting this 
environmental impact statement done on a timely basis would 
seem to be the job of your agency, and the idea that I could 
just submit data to you today that would change everything is 
sort of scary to me because we are not going to make any 
progress. We are going to maybe wait 10 years to develop 
something instead of having regular improvements over a period 
of time.
    Mr. Cruickshank. Our scientists are well connected to the 
professional community, so it is not like we would see science 
come in today that would totally change the way we look at 
things, because they have been involved with the practitioners 
and other scientists around the world and understand what sorts 
of things are being developed. It is just a matter of trying to 
evaluate it and incorporate it in the context of EIS that can 
take some time to do.
    Dr. Benishek. Well, OK, I understand your rationale, but 
there are many other industries that do this on a timely basis, 
and we make continuing progress.
    My time is up. Thank you.
    The Chairman. Representative Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chair, and I understand we 
have already touched on the topic that I would like to go on 
already today, but I would really like to go back and 
understand a little bit more about the marine mammal impacts.
    And so, for Mr. Cruickshank, I came today because I have 
been interested in the potential and understanding more about 
the harmful impacts or potential harmful impacts of seismic 
surveys on marine life and especially on the sea turtle and the 
endangered right whale. And what I want to ask is how you can 
help us understand how these animals are actually affected by 
seismic surveys. So, for example, how far away does the right 
whale need to be from an acoustic source to not be affected? 
What are the immediate and long-term effects? What are the 
resulting consequences for the animals? I know this may be 
difficult to answer and may be different for different animals, 
but could you just give me an overview of what is actually 
happening here?
    Mr. Cruickshank. Yes. I would preface by saying I am not 
the marine biologist, so if you have questions about specific 
impacts on specific species, we will be able to get that to you 
after the hearing, but generally what we try to do is take a 
look at the sorts of impacts that are possible, and you are 
right, they do vary by species and location. And then a big 
part of the NEPA process is trying to design mitigation and 
monitoring measures that would reduce or eliminate those sorts 
of potential impacts, and so a lot of what we are trying to do 
in this process is to try to figure out what conditions we 
should place on approvals that would best protect those 
species.
    Dr. Lowenthal. And in trying to figure out, based upon the 
research, where is the uncertainty? I know you are not a 
research scientist, but where is the uncertainty in our 
understanding of acoustic? Do we need further research? Are we 
really clear about what those impacts are, or really are we 
just kind of just assuming that we understand what those 
impacts are?
    Mr. Cruickshank. I think it is a combination of things, 
there is always additional research that can be done, and we 
continue to fund research on these very questions. I think, you 
know, what we try to understand through our research is how 
these species do react to these sound sources and how effective 
the mitigation measures have been, but there are a lot of 
species out there, a lot of ocean to cover, and we are 
continuing to learn new things as we conduct this research. And 
those things will be considered in future decisionmaking.
    Dr. Lowenthal. And you mentioned mitigation measures. Can 
you be more specific? What are those measures that we use to 
mitigate these effects?
    Mr. Cruickshank. There is a suite of activities we do now 
for seismic, including having marine mammal observers, 
requiring shutdown and ramp up to make sure that if there are 
species in the area that they have a chance to get out of the 
way before they are hit by loud noises. We are looking at a 
number of other possible mitigation in this EIS, including time 
area closures, minimum separation distances between 
simultaneous surveys, passive acoustic monitoring, and adaptive 
management strategies. We are continuing to try to identify 
best practices and improve our mitigation.
    Dr. Lowenthal. So you think that in the preferred 
alternative in the draft programmatic environmental impact 
statement, the PEIS, that we really are maximizing these 
mitigation opportunities?
    Mr. Cruickshank. We have been working with other scientists 
and with NOAA to try and understand what the best practices 
would be, and we are trying to develop those mitigation 
measures that we think would be the most effective.
    Dr. Lowenthal. I am just wondering if anyone else on the 
panel has anything to add to this and help me in my 
understanding of just really what those impacts are.
    Dr. Boesch. Yes, Mr. Lowenthal, I am here representing the 
oil spill commission, and we did not investigate this issue of 
the effects of seismic exploration.
    However, unlike Dr. Cruickshank and Dr. Knapp, I have to 
admit that I am a marine biologist, and I am not an expert on 
marine mammals, but I have obviously followed the issues. And I 
just want to say that part of the problem that the agency has 
in making these decisions is that the science isn't all lined 
up in the same direction in saying that there are no concerns 
and no risks. There are legitimate concerns, not only with 
respect to mortality, but more specifically with respect to 
avoidance that have significant effects on the species. And I 
know scientists who have different views about these things, 
which means that it is a matter of scientific, legitimate 
scientific controversy, and so this is the kind of challenge 
the agency has of sorting through this, to kind of make the 
decision and then to make the decision the way that provides 
protection.
    Dr. Lowenthal. Thank you, and I yield back.
    The Chairman. OK, thank you.
    We will have one more round of questioning. I am going to 
then give the gavel to Representative Miller to finish up after 
I ask my questions, and then we will--Duncan, excuse me, and 
then we will conclude. My question is for Mr. Miller; that is 
why that was on my mind. Sorry about that.
    Mr. Miller, and I got it right this time, not Dr. Miller, 
in 2012, the Bureau of Ocean Energy Management and the Bureau 
of Safety and Environmental Enforcement put out a joint notice 
to lessees updating mitigation measures for marine mammals 
during seismic operations in the Gulf of Mexico. These 
regulations set up a rigorous process to minimize any possible 
impacts on marine mammals. Can you discuss how your company 
implements these specific measures, such as the use of ramping 
up procedures and marine observers?
    Mr. Miller. Within the industry, all of the vessels 
worldwide now carry marine mammal observers, and they are 
usually locally based. Those are on the vessel with binoculars, 
on the bridge looking out for marine mammals, and if there is a 
mammal that is within the exclusion zone, then the vessel is 
shut down, and there is a time period that that vessel cannot 
discharge the energy source to let this animal move out of the 
area. At that point, there is a ramp up, and you start with a 
low volume energy source until you get back up to your 
production levels. It is very common practice. The whole 
industry operates within those guidelines. There are industry 
guidelines that the IGC puts out, and we all, we follow those 
worldwide.
    The Chairman. And Mr. Miller, I assume that you have great 
flexibility in terms of if some whales or other marine mammals 
are coming into the area, that you can wait while they depart, 
come and go, and still conduct the seismic exploration around 
their behavior?
    Mr. Miller. Yes, 100 percent correct. I mean, you may move 
a little bit to a different area, but we are flexible. That is 
the nature of our business. We work with them, and we respect 
it, so it is not a problem.
    The Chairman. Thank you.
    Dr. Knapp, there have not been new seismic surveys 
conducted in the Atlantic OCS in over 30 years. We have talked 
about this earlier. Much of the data that is currently being 
used by the Federal Government to make oil and gas resource 
assessments is from the late 1970s. Can you talk about how the 
science and technology has changed since that time?
    And, Mr. Miller, if you want to add to this discussion, 
please feel free to do so.
    Dr. Knapp. Thank you, Mr. Chairman. We are in the process 
of and have been working with the so-called legacy data from 
the Atlantic OCS, and clearly, it is a useful resource, but 
given the technological developments that have taken place in 
not only the last 30 years, but in particular the last 10 
years, for the acquisition of 3D seismic data, there are 
advancements, significant advancements that have been made both 
in the design and just the acquisition of the data, let alone 
the processing and the interpretation, so it would be the 
equivalent of using a, you know, a rock to draw in the sand 
versus having a computer to basically write something, the 
difference in what the technology is allowing us, and some 
spectacular examples in terms of that 3-dimensional imaging of 
very complex structures that we find in the subsurface.
    Mr. Miller. Just briefly. The technology, the big 
technology that has the longer offset that is going to image 
these deeper plays, and we have been modeling. It is very easy 
to take the old data that is at 3,000 meters and take the new 
data that is 12,000 meters that we have in other parts of the 
world, but you only process the three and you compare them, and 
they look very similar, the old data and new data if you only 
use part of it, but when you add the rest of the offsets then 
the image improves dramatically, and that is what we are going 
to see.
    The Chairman. OK, thank you all for your testimony.
    I am going to hand the gavel over to Representative Duncan 
and, at this point, recognize Representative Costa for 5 
minutes of questions.
    Mr. Costa. Thank you.
    Mr. Duncan [presiding]. The gentleman from California.
    Mr. Costa. Thank you, Mr. Chairman. From the snippets of 
the comments I have heard based upon the questions, although I 
didn't catch the opening statements, I am questioning after the 
report here that there seems to be consensus as to, one, the 
new science and technology; two, an acknowledgment of lessons 
learned; three, a need at this point for the Congress to act to 
provide the guidelines to demonstrate how we move forward. The 
tremendous resources that are there I think everyone is aware 
of. Members of Congress, before they get into their questioning 
mode, always have to get their bona fides, right, whether we 
have them or not, but the fact is for some of us who are avid 
sailors on coastal waters and who have spent time in various 
parts of the Atlantic and the Pacific, who are familiar with 
migratory patterns with whales and their pods and other sea 
life, I think that there is a way this can be done, and I think 
science has demonstrated that it can be done, so I guess I am 
trying to understand what the problem is here, except that, 
like a lot of other things, Congress has failed to take action 
to provide the direction. Am I missing something?
    Dr. Knapp. Thank you, Mr. Costa.
    Not in my opinion. I think it should be fairly 
straightforward that these studies should move forward with 
expedition.
    Mr. Miller. We conduct these surveys all over the world 
safely, and there is no reason that this cannot be taken 
forward and completed.
    Mr. Costa. I mean, that is my sense. I mean, I was just off 
the Santa Barbara coast last month, and the ability to make 
determinations as to when these migratory patterns take place 
is well documented, and I mean, we have greater issues with 
these mammals being injured as a result of them normally 
pursuing sea lanes and shipping taking place that accidentally 
has an incident where there is an injury, but where you are 
planning the seismology and you are doing different grid 
patterns and you are focused in an area, what is happening in 
that area. It is totally different than ships that are going on 
a 24-7 basis that are involved in shipping lanes. I mean, for 
those of us who are on a 30- or 40-foot sailboat, hell, they 
don't even look at us. You need to be careful and beware.
    So it seems to me, Mr. Chairman, that this is one of those 
issues that there ought to be consensus with and that we ought 
to be able to move forward with, realizing that there are some 
other issues that are out there that we all have concerns about 
as it relates to safely dealing with exploration and 
development of these resources that I think are far more 
serious than this issue of seismology and the testing that goes 
with it.
    Any other comments that either of you would like to make?
    Dr. Knapp. If I could, Congressman Costa, I agree with you, 
and I would also make the point that it seems that in many 
cases, people are viewing exploration, seismic acquisition and 
exploration production as an either/or proposition with a lot 
of the other industries that take place in the offshore: 
shipping, fishing, tourism, et cetera, and I really don't think 
that is accurate. I think that we have proven that those 
activities can go on simultaneously in many other parts of the 
world.
    Mr. Costa. I mean, there is another issue here, and of 
course, the technology we know has changed tremendously in the 
last 20, 25 years. There are some folks, and I disagree with 
them, who don't want to see any additional utilization of the 
offshore resource, whether it be oil or gas. And so they want a 
complete moratorium on any exploration, let alone any 
utilization of that resource. And so, therefore, I understand 
their goal is not to have any seismology testing and to 
question the efficacy of the seismology testing because they 
have a different view, and that is they don't want any of the 
resource to be utilized.
    So let's be clear about that. If the goal is we shouldn't 
open up any of these areas period, for a host of reasons that 
they believe are valid, I understand that. I may disagree with 
it, but I understand that, but it is not the seismology testing 
that is the issue.
    Anyway, I have expired my time, and thank you. I yield 
back.
    Mr. Duncan. I thank the gentleman from California.
    I will recognize myself for 5 minutes.
    Dr. Knapp and Mr. Miller, the seismic work that we are 
talking about, the technology that is being used, is it 
currently being used all over the globe for seismic research 
for oil and natural gas?
    Mr. Miller. Yes, that is correct, our industry has vessels 
operating in every ocean right now, except Antarctic, but all 
over the world.
    Mr. Duncan. So we are not talking about anything that is 
new and that hasn't been tried and true, tested?
    Mr. Miller. That is correct.
    Mr. Duncan. OK.
    Mr. Barnes, can you discuss further what sort of mitigation 
effort seismic companies operating in the Canadian Atlantic 
utilize to minimize the impact of marine life?
    Mr. Barnes. Very similar mitigation measures as has already 
been mentioned. We have marine mammal observers on board 
seismic vessels. We do slow ramp ups of the sound source. We do 
constant communication with the fishing industry, so they 
understand. We do seismic, and we understand in the oil and gas 
industry, where there are any fishing industries, we avoid any 
conflict. And finally, we avoid areas where there are spawning 
grounds at certain points of the year.
    Mr. Duncan. And I would assume that is very similar to what 
is being done in the Gulf of Mexico for mitigation. Are you 
familiar with that?
    Mr. Barnes. I assume so, but I am sure others on the panel 
would have better information.
    Mr. Duncan. Mr. Cruickshank?
    Mr. Cruickshank. That is correct, a similar source of 
mitigation measures around shutdown and ramp up, marine mammal 
observers, marine debris requirements, vessel strike avoidance. 
There is a whole suite of measures in place.
    Mr. Duncan. The new environmental impact statement and 
study, will the recommendations of that namely mirror what is 
currently being done, or can you elaborate on what you are 
going to put in there for future mitigation because I think the 
oil and natural gas companies and the seismic companies, 
rather, need to know what is coming and whether it is going to 
be cost-prohibitive. Or is it going to mirror what is being 
done in Canada, what is being done in the GOM now?
    Mr. Cruickshank. The measures currently in place in the 
Gulf will be used in the Atlantic. We are also looking at some 
other mitigation measures, including time area closures where 
certain areas might be closed during certain seasons when there 
is a particular concentration of an endangered species in that 
area. We are looking at minimum separation distances between 
simultaneous surveys, passive acoustic monitoring, adaptive 
management, so we are looking at trying to improve our suite of 
mitigation measures, but the ones we have been using in the 
Gulf will also be in place.
    Mr. Duncan. So what I am getting at I guess ultimately is, 
we have seismic being done all over the globe similar to what 
is going to be done in the Mid- and Southern Atlantic areas 
that we are talking about, we have shown that there is no 
definitive and proven impact where marine mammals have been 
killed. I haven't been able to find one, and no one has been 
able to provide me that. We have got mitigation that is being 
done in the Canadian waters that is very similar to what is 
currently being done in the Gulf of Mexico. That mitigation has 
basically protected the marine species, so why would we put any 
more stringent requirements in place when these are proven 
mitigation practices and this is technology that has been used 
all over the world? So why would we go beyond what is currently 
working?
    Mr. Cruickshank. The requirements under the law for 
endangered species are not just to avoid death or injury; it is 
also to try and minimize effect on behavior. And most of the 
impacts that you see from this activity are behavioral effects, 
so we are trying to institute measures that would limit the 
impact on the behavior of those endangered species.
    Mr. Duncan. All right. Well, there was an article today in 
the Environmental and Energy Daily by Phil Taylor. And Mr. 
Miller, he says that surveys which involve loud blasts from air 
guns towed behind ships for a day, weeks or months at a time 
are believed to impair hearing in whales and an array of other 
marine life. Are you dragging seismic out there for a month at 
a time?
    Mr. Miller. No, not in a single location, no. We move. The 
vessel is on a grid or a track, and we are in different 
locations. It is not in one location we sit all the time.
    Mr. Duncan. OK. This article goes on to quote the gentleman 
from New Jersey who testified or asked questions earlier who 
has lobbied to the Obama administration to stop the seismic 
plan. He has called it the first step to offshore drilling, and 
we have to put a stop to it before we experience a Deepwater 
Horizon-like disaster in the Atlantic. It is an intent to put 
stop to seismic because they don't want to see offshore 
drilling. And seismic is the first step for a 5-year plan. If 
you look at the process, seismic, determine what is there, a 
lease sale to open up those areas, and then production, and so 
I think it is very clear. I don't want to see the mitigation 
efforts be so cost-prohibitive and so large and cumbersome that 
it doesn't allow the seismic activity to happen off of South 
Carolina's coast because we want to see those resources 
developed.
    And with that, I will recognize the Ranking Member for 5 
minutes.
    Dr. Holt. I thank the gentleman. My colleague spoke about 
our colleague Mr. Pallone from New Jersey. Yes indeed, seismic, 
and I will just speak on this without a question, is a first 
step, but as we identified in the earlier round of questioning 
and in the testimony, there are some very important 
recommendations of the Commission that should be implemented 
before we expand territory. It is that simple, and we can look 
at the question of expansion, expanding territory, but first 
things first.
    Mr. Cruickshank, I have here a letter from the Mid-Atlantic 
Fishery Council, and they point out how important commercial 
and recreational fishing is to the economy, to jobs in the Mid-
Atlantic region and say that, in light of the insufficient data 
and analysis about the effects the impacts of these activities 
on valuable marine resources, the Council cannot support the 
draft PEIS.
    First of all, Mr. Chairman, I would like to ask unanimous 
consent to have this letter included in the record.
    Mr. Duncan. Without objection, so ordered.
    Dr. Holt. And then I would like to ask, Mr. Cruickshank, if 
you think that the impacts, the effects on marine resources are 
significant enough that they should be considered in this and 
whether you think they are significant enough that they call 
for a delay in the expansion.
    Mr. Cruickshank. We did receive that comment, and we 
consider that comment along with all others in moving from the 
draft EIS to the final EIS, and we are using the best 
information we have available to us. I would note that these 
activities and very productive fisheries have coexisted in the 
Gulf of Mexico for quite sometime, so we believe if we put the 
right suite of mitigation measures in place, that seismic 
activity can occur without having a detrimental impact on 
commercial fisheries.
    Dr. Holt. OK. I hope that the committee will continue to 
collect data, collect evidence to resolve the questions raised 
by those whose livelihood depends on these fish, on these 
marine species so that we don't just assume that everything is 
OK.
    I would like to ask a completely separate question about 
wind, if I may, Mr. Cruickshank. The Atlantic Coast has been 
dubbed the Saudi Arabia of wind because of enormous wind 
potential offshore. The Department of Energy estimates that 
more than 4,000 gigawatts of offshore wind potential is found 
along the coasts, which greatly exceeds what is needed to power 
the entire United States. The permitting process for offshore 
wind in the Atlantic is farther along than oil and gas, and 
unlike oil and gas offshore, wind energy avoids, well, the 
threats of seismic air guns and oil spills and greenhouse gas 
emissions. There certainly are some advantages to it. Why is 
the Administration diverting from the expeditious development 
of abundant offshore wind energy and proposing to double down, 
in effect, on fossil fuels along the Atlantic Coast?
    Mr. Cruickshank. The Administration has an all-of-the-above 
approach to energy, and we are aggressively pursuing wind 
offshore the Atlantic. We have had two----
    Dr. Holt. Give some examples of this aggressive pursuit 
then because it doesn't look like it from my point of view.
    Mr. Cruickshank. We have had two successful competitive 
auctions last year for offshore wind leases to get them in 
commercial hands, there are currently five commercial leases 
that have been issued to companies off the North and Mid-
Atlantic. We have just announced another lease sale coming up 
for an area offshore Maryland, and we are very close to issuing 
announcements for additional lease sales off New Jersey and 
Massachusetts to issue commercial leases for offshore wind 
development. Once those leases are issued, it is then in the 
hands of the corporations to be able to put together the 
projects.
    Dr. Holt. My time is expiring, but please understand that I 
have a great deal of interest in this, as do the people of New 
Jersey, and we will want aggressive action and a full report, 
please. Thank you.
    Mr. Duncan. I thank the Ranking Member and I thank Chairman 
Lamborn for putting this hearing together and staff for their 
work and this panel.
    I thank the panelists, excellent testimony.
    I just wish there had been more members here involved, but 
I want to thank the members that did participate today. Members 
of the committee may have additional questions for the record, 
and I ask you all to respond to these in writing.
    And if there is no further business, without objection, the 
committee will stand adjourned.

    [Whereupon, at 11:49 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
